      Semiannual
        Report to
        Congress
April 1, 2011–September 30, 2011
                    OIG-CA-12-002


       Office of Inspector General
      Department of the Treasury
Highlights
During this semiannual reporting period, the Office of Audit issued 50 audit products, including 20
material loss reviews and one in-depth review of failed Treasury-regulated banks and thrifts; the Office
of Small Business Lending Fund (SBLF) Program Oversight issued 2 products; and the work by the
Office of Investigations resulted in 15 arrests and 10 convictions. Examples of our most significant
results are described below.
• We noted serious deficiencies related to the physical security over the NexGen $100 finished notes
   and work-in-process sheets at both the Bureau of Engraving and Printing’s currency facilities. For
   example, we found inadequate security over finished notes and work-in-process sheets at the
   Eastern Currency Facility. In response, the bureau promptly corrected the situation.
• We issued six audit reports as part of our ongoing oversight of Treasury’s more than $20 billion of
   non-Internal Revenue Service spending authority under the American Recovery and Reinvestment
   Act of 2009. These audits resulted in questioned award amounts of approximately $2.1 million under
   the Section 1603 Program (Payments in Lieu of Tax Credits for Specified Energy Properties).
• As required by the Dodd-Frank Wall Street Reform and Consumer Protection Act, we completed
   the second joint review with the Offices of Inspector General of the Federal Reserve Board and the
   Federal Deposit Insurance Corporation on the transfer of Office of Thrift Supervision functions to
   the Office of the Comptroller of the Currency, Federal Reserve Board, and the Federal Deposit
   Insurance Corporation. We concluded that the transfer of Office of Thrift Supervision functions,
   employees, funds, and property substantially occurred as planned. Certain aspects of the transfer are
   ongoing or were not yet required to be completed; we will continue to monitor the transfer until all
   planned activities are accomplished.
• We found that the contract and project management of Treasury’s new telecommunications system,
   TNet, was poor. Among other things, the TNet task order terms did not protect the government’s
   interest to obtain a timely enterprise network at the least possible cost. Furthermore, inadequate
   contractor performance resulted in additional costs of $33 million to Treasury.
• With respect to the $30 billion SBLF authorized by the Small Business Jobs Act of 2010, we
   reported that Treasury’s investment decision process, which closely follows legislative requirements,
   targets institutions that are at least adequately-capitalized. We did suggest that Congress consider
   whether to make the repayment of dividends by SBLF recipient banks a requirement for exiting the
   program. We also reported that Treasury needs to strengthen accountability by States for use of
   funds received through the State Small Business Credit Initiative, a $1.5 billion program also
   authorized by the Act.
• The Office of Investigations determined that a number of Treasury checks and fraudulently-
   obtained tax refund Treasury checks were stolen by a group of individuals in Georgia. Five arrest
   warrants and two federal criminal indictments have been obtained thus far, with more to follow.
• An investigation of a Mint Police Officer found that he received $2.4 million from the sale of error
   coins that he stole from the Mint.


       Treasury Office of Inspector General Semiannual Report—September 2011                           i
Message From the Inspector General
I am pleased to provide our Semiannual Report for September 30, 2011. Over the past 6 months, my
office continued to focus on the Treasury programs and responsibilities under our jurisdiction that the
Administration and the Congress put in place to address the Nation’s efforts to recover from the
financial crisis and move forward.

For example, the Small Business Jobs Act of 2010 established in Treasury a $30 billion Small Business
Lending Fund (SBLF) to help banks increase small businesses lending. That program disbursed just over
$4 billion to 332 banks, with $1.6 billion going to 141 banks in its final days of funding authority. In May
2011, our Office of SBLF Program Oversight issued its first report, on SBLF’s investment decision
process. We found that while Treasury established an investment decision framework, major elements of
the framework had not been finalized. We are currently evaluating the cost for administering the
program, as well as Treasury’s decision on a number of investments. The Office of SBLF Program
Oversight is also evaluating the $1.5 billion State Small Business Credit Initiative (SSBCI) which
provides federal funds to states for programs that support lending to small businesses. We are currently
preparing an initial risk assessment of the participating states, and will begin making site visits based on
that assessment. We look forward to working with the Department to help ensure that SBLF and SSBCI
program controls are strong and program results are transparent.

In July 2011, the Council of Inspectors General on Financial Oversight (CIGFO), created by the Dodd-
Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank) and which I chair, issued its first
annual report to the Financial Stability Oversight Council (FSOC) and the Congress. The report
included a discussion of current and pending joint projects of CIGFO members and an overview of the
FSOC’s compliance with statutory requirements. We reported that FSOC had either met or was on
target to meet all requirements to date. In addition, our report included sections, developed by each
Inspector General, establishing a baseline of oversight activity conducted by each Inspector General
from the beginning of the current financial crisis through July 14, 2011. Going forward, CIGFO will
continue to provide an important source of independent oversight of FSOC.

During the period, we completed important reviews on a number of other fronts related to Dodd-
Frank. For example, we completed a joint review with the Office of Inspector General of the Federal
Reserve Board on the planning activities for standing up the Bureau of Consumer Financial Protection
(CFPB). Although established as an independent bureau of the Federal Reserve Board, we performed
this coordinated review as the Treasury Secretary is responsible for CFPB until the first CFPB Director
is confirmed. CFPB did in fact open its doors as planned in July 2011. Additionally, we continued our
joint oversight with the Offices of Inspector General of the Federal Reserve Board and the Federal
Deposit Insurance Corporation of the transfer of Office of Thrift Supervision functions to other
banking agencies. As we jointly reported in September 2011, the transfer was substantially implemented
as planned.

We are also continuing our oversight of Treasury’s investment in and continued financial support of
Fannie Mae and Freddie Mac. For example, among other things, we are looking at Treasury’s sales of its

       Treasury Office of Inspector General Semiannual Report—September 2011                           ii
                                                             Message From the Inspector General

remaining $60 billion Fannie Mae and Freddie Mac mortgage-backed securities investment portfolio. It
should be noted that Treasury expects to dispose of the entire portfolio by March 2012.

With respect to our mandate to perform reviews of all failed Treasury regulated institutions, I noted in
my last Semiannual Report that the rate of bank failures had slowed, but that we still had a substantial
number of these reviews in process. During the period, we significantly reduced that inventory and are
current on all new failed bank reviews. We also continued our proactive audits and investigations of the
American Recovery and Reinvestment Act of 2009 (Recovery Act) recipients. To date, in Treasury’s two
major Recovery Act programs, payments in lieu of tax credits for specified energy properties and
payments to the states in lieu of tax credits for low income housing, Treasury has disbursed over
$13 billion. Our focus initially has been on the specified energy properties program. So far, we have
completed reviews of 5 Recovery Act recipients and have another 103 in progress.




Eric M. Thorson
Inspector General




       Treasury Office of Inspector General Semiannual Report—September 2011                        iii
Contents
Highlights ..................................................................................................................................... i 
Message From the Inspector General ...................................................................................... ii 
Office of Inspector General Overview ...................................................................................... 1 
Treasury’s Management and Performance Challenges .......................................................... 2 
Office of Audit – Significant Audits and Other Products........................................................ 9 
       Financial Management .................................................................................................................................9 
       Information Technology..............................................................................................................................11 
       Programs and Operations ..........................................................................................................................12 
           Failed Bank Reviews .............................................................................................................................14 
           Other Banking-Related Work .................................................................................................................17 
           Recovery Act Audits ..............................................................................................................................19 
Office of SBLF Program Oversight – Significant Products .................................................. 22 
Office of Investigations – Initiatives and Significant Investigations ................................... 25 
Other OIG Accomplishments and Activity ............................................................................. 29 
Statistical Summary ................................................................................................................. 32 
       Summary of OIG Activity ............................................................................................................................32 
       Significant Unimplemented Recommendations ..........................................................................................32 
       Summary of Instances Where Information Was Refused ...........................................................................34 
       Listing of Audit Products Issued .................................................................................................................34 
       Audit Reports Issued With Questioned Costs ............................................................................................38 
       Audit Reports Issued With Recommendations That Funds Be Put to Better Use ......................................39 
       Previously Issued Audit Reports Pending Management Decisions (Over 6 Months) .................................39 
       Significant Revised Management Decisions ..............................................................................................39 
       Significant Disagreed Management Decisions ...........................................................................................40 
       Peer Reviews .............................................................................................................................................40 
Bank Failures and Nonmaterial Loss Reviews ...................................................................... 41 
References to the Inspector General Act ............................................................................... 43 
Abbreviations ............................................................................................................................ 44 
This page intentionally left blank.
                                                      The Office of Investigations, under the
Office of Inspector General                           leadership of the Assistant Inspector General
Overview                                              for Investigations, performs investigations and
                                                      conducts initiatives to detect and prevent fraud,
The Department of the Treasury’s Office of            waste, and abuse in Treasury programs and
Inspector General (OIG) was established               operations under our jurisdiction. The office
pursuant to the 1988 amendments to the                also manages the Treasury OIG Hotline to
Inspector General Act of 1978. OIG is headed          facilitate reporting of allegations involving
by an Inspector General appointed by the              Treasury programs and activities.
President, with the advice and consent of the
Senate.                                               The Office of SBLF Program Oversight, under
                                                      the leadership of a Special Deputy Inspector
OI G performs independent, objective reviews          General, conducts, supervises, and coordinates
of Treasury programs and operations, except           audits and investigations of the SBLF program
for those of the Internal Revenue Service (IRS)       and State Small Business Credit Initiative
and the Troubled Asset Relief Program (TARP),         (SSBCI).
and keeps the Secretary of the Treasury and
Congress fully informed of problems,                  The Office of Counsel, under the leadership of
deficiencies, and the need for corrective action.     the Counsel to the Inspector General, provides
The Treasury Inspector General for Tax                legal advice to the Inspector General and all
Administration performs oversight related to          OIG components. The office represents OIG
IRS. A Special Inspector General office and the       in all legal proceedings and provides a variety of
Government Accountability Office perform              legal services including (1) processing all
oversight related to TARP.                            Freedom of Information Act and Giglio
                                                      requests; (2) conducting ethics training;
OIG has five components: (1) Office of Audit,         (3) ensuring compliance with financial
(2) Office of Investigations, (3) Office of Small     disclosure requirements; (4) reviewing proposed
Business Lending Fund (SBLF) Program                  legislation and regulations; (5) reviewing
Oversight; (4) Office of Counsel, and (5) Office      administrative subpoena requests; and
of Management. OIG is headquartered in                (6) preparing for the Inspector General’s
Washington, DC, and has an audit office in            signature, cease and desist letters to be sent to
Boston, Massachusetts.                                persons and entities misusing the Treasury seal
                                                      and name.
The Office of Audit, under the leadership of the
Assistant Inspector General for Audit, performs       The Office of Management, under the
and supervises audits, attestation engagements,       leadership of the Assistant Inspector General
and evaluations. The Assistant Inspector              for Management, provides services to maintain
General for Audit has two deputies. One is            the OIG administrative infrastructure.
primarily responsible for performance audits,
and the other is primarily responsible for            As of September 30, 2011, OIG had 174 full-
financial management, information technology          time staff. OIG’s fiscal year 2011 appropriation
(IT), and financial assistance audits.                was $29.6 million.


       Treasury Office of Inspector General Semiannual Report—September 2011                        1
                                                       for large, interconnected nonbank financial
Treasury’s Management and                              companies. FSOC also has the authority to
Performance Challenges                                 designate nonbank financial companies for
                                                       consolidated supervision and to recommend
In accordance with the Reports Consolidation           heightened standards. As of the date of the
Act of 2000, the Treasury Inspector General            Inspector General’s memorandum, FSOC was
annually provides the Secretary of the Treasury        still in the process of establishing the
with our perspective on the most serious               framework for identifying systemically
management and performance challenges facing           significant nonbank financial institutions.
the Department. In a memorandum to Secretary
Geithner dated October 24, 2011, Inspector             The Council of Inspectors General on Financial
General Thorson reported four management               Oversight (CIGFO), chaired by the Treasury
and performance challenges. The following is an        Inspector General, was also established by
abridged version of that memorandum.                   Dodd-Frank and is an important source of
                                                       independent, unbiased analysis to FSOC. As
Transformation of Financial Regulation                 required, CIGFO issued its first annual report
                                                       in July 2011. That report discussed current and
Enacted in July 2010, the Dodd-Frank Wall              pending joint projects of CIGFO members and
Street Reform and Consumer Protection Act              CIGFO’s conclusion that FSOC had either met
(Dodd-Frank) established a number of new               or is on target to meet all requirements to date.
responsibilities for Treasury and the Secretary.       In the future, CIGFO anticipates establishing a
                                                       working group to oversee the process of
For example, Dodd-Frank created the Financial          designating systemically important nonbank
Stability Oversight Council (FSOC), chaired by         financial institutions for heightened prudential
the Treasury Secretary, whose mission is to            supervision.
identify risks to financial stability that could
arise from the activities of large, interconnected     Dodd-Frank also established two new offices
financial companies; respond to any emerging           within Treasury: the Office of Financial
threats to the financial system; and promote           Research and the Federal Insurance Office. The
market discipline. As required, FSOC issued its        Office of Financial Research is to be a data
first annual report in July 2011. The report           collection, research, and analysis arm of FSOC.
contained recommendations to (1) heighten risk         The Federal Insurance Office is charged with
management and supervisory attention in                monitoring the insurance industry, including
specific areas, (2) further reforms to address         identifying gaps or issues in the regulation of
structural vulnerabilities in key markets, (3) take    insurance that could contribute to a systemic
steps to address reform of the housing finance         crisis in the insurance industry or financial
market, and (4) ensure interagency coordination        system. We are currently reviewing the
on financial regulatory reform. This is an             Department’s progress in standing up the
important early step, but FSOC still has work          Office of Financial Research and our future
ahead to meet all of its responsibilities. In this     work plans include a review of the Federal
regard, Dodd-Frank calls for the consolidated          Insurance Office.
supervision and heightened prudential standards


        Treasury Office of Inspector General Semiannual Report—September 2011                       2
                                           Treasury’s Management and Performance Challenges

Intended to streamline the supervision of              Protection (CFPB). CFPB opened for business
depository institutions and holding companies,         on July 21, 2011, as planned. CFPB is an
Dodd-Frank transferred the powers and duties           independent bureau of FRB but Treasury has a
of the Office of Thrift Supervision (OTS) to the       unique role in its operations. Specifically, until a
Office of the Comptroller of the Currency              Director is appointed, the Treasury Secretary is
(OCC), the Board of Governors of the Federal           charged with exercising some, but not all, of the
Reserve System (FRB), and the Federal Deposit          Director’s authorities.
Insurance Corporation (FDIC) effective July 21,
2011. As was also required by the act, we and          Management of Treasury’s Authorities
the OIGs of FDIC and FRB completed two                 Intended to Support and Improve the
reviews on the transfer during 2011. The first
review reported on the planning for the transfer
                                                       Economy
and the second review reported on the status of        Congress provided Treasury with broad
the transfer 6 months later. The reviews found         authorities to address the financial crisis under
that the planning was generally adequate and           the Housing and Economic Recovery Act
that transfer activities occurred as planned.          (HERA) and the Emergency Economic
However, we also reported on items that were           Stabilization Act (EESA) enacted in 2008, the
still “works-in-progress.”                             American Recovery and Reinvestment Act of
                                                       2009 (Recovery Act), and the Small Business
The other regulatory challenges that we                Jobs Act of 2010. Certain authorities in HERA
discussed in the previous year’s memorandum            and EESA have now expired but challenges
still remained. Specifically, since September          remain in managing Treasury’s outstanding
2007, 113 Treasury-regulated financial                 investments. To a large extent, Treasury’s
institutions failed, with estimated losses to the      program administration under these acts has
Deposit Insurance Fund (DIF) of about                  matured. However, investment decisions
$36.3 billion. Although many factors                   involving the Small Business Jobs Act programs
contributed to the turmoil in the financial            have only recently been completed.
markets, our work found that OCC and the
former OTS often did not identify early or force       Management of the SBLF and SSBCI
timely correction of unsafe and unsound
practices by numerous failed institutions under        Enacted in September 2010, the Small Business
their respective supervision. The irresponsible        Jobs Act of 2010 created the $30 billion SBLF
lending practices of many institutions are now         within Treasury and provided $1.5 billion to be
well-recognized. At the same time, many of the         allocated by Treasury to eligible state programs
failed banks also engaged in other high-risk           through the SSBCI. Both programs were slow
activities, including high asset concentrations in     to disburse funds to intended recipients, with
commercial real estate and overreliance on             Treasury approving the majority of SBLF and
unpredictable wholesale funding to fund                SSBCI applications during the last quarter of
growth.                                                fiscal year 2011. Now that Treasury has
                                                       completed the approval process for these two
During the past year, Treasury was successful in       programs, the challenge will be to exercise
standing up the Bureau of Consumer Financial           sufficient oversight to ensure that funds are


        Treasury Office of Inspector General Semiannual Report—September 2011                          3
                                            Treasury’s Management and Performance Challenges

used appropriately by participants, SBLF               in holding states accountable for the proper use
dividends owed Treasury are paid, and that the         of funds as it has not, among other things,
programs achieve intended results.                     clearly defined the oversight obligations of
                                                       states or specified minimum standards for
With regard to SBLF, Treasury disbursed more           determining whether participating states have
than $4 billion to 332 financial institutions. Of      fulfilled their oversight responsibilities.
the institutions funded, 42 percent were
institutions that used their SBLF investment to        Management of Recovery Act Programs
refinance securities issued under the TARP
Capital Purchase Program. Institutions receiving       Treasury is responsible for overseeing an
investments under the SBLF program are                 estimated $150 billion of Recovery Act funding
expected to pay dividends to Treasury at rates         and tax relief. Treasury’s oversight
that will decrease as the amount of qualified          responsibilities include programs that provide
small business lending the institution increases.      payments for specified energy property in lieu
The dividends are non-cumulative, meaning that         of tax credits, payments to states for low-
institutions are under no obligation to make           income housing projects in lieu of tax credits,
dividend payments as scheduled or to pay off           grants and tax credits through the Community
previously missed payments before exiting the          Development Financial Institutions Fund
program. That said, there are provisions for           (CDFI), economic recovery payments to social
increased restrictions as dividends are missed.        security beneficiaries and others, and payments
                                                       to U.S. territories for distribution to their
Treasury will face many challenges in ensuring         citizens.
that the SBLF program meets its intended
objective of increasing lending to small               It is estimated that Treasury’s Recovery Act
businesses and in measuring program                    payments in lieu of tax credit programs, for
performance.                                           specified energy property and to states for low-
                                                       income housing projects, will cost more than
As of September 27, 2011, 53 states, territories,      $20 billion over their lives. To date, Treasury
and eligible municipalities (participating states)     has awarded approximately $13 billion under
had applied for $1.5 billion in SSBCI funding.         these programs. We conducted a number of
Of the participating states, 31 received their first   audits of recipients of payments under the
funding allocations of approximately                   specified energy property program to determine
$0.3 billion. Under SSBCI, participating states        whether funds were properly awarded to eligible
may obtain funding for programs that partner           applicants for eligible properties. We have
with private lenders to extend credit to small         found some questionable claims involving
businesses. A key feature is that participating        several million dollars in total. We plan to
states receive their allocations in one-third          continue our work in this area and will report
increments. Treasury may withhold a successive         any major instances of program abuse as
increment to a state pending the results of an         necessary.
audit by our office. Primary oversight of the use
of SSBCI funds is the responsibility of each
participating state. Treasury will face challenges


        Treasury Office of Inspector General Semiannual Report—September 2011                      4
                                           Treasury’s Management and Performance Challenges

Management of the HERA and EESA                        on October 3, 2010. Treasury, however, is
                                                       continuing to make payments for programs
Under HERA, Treasury continues to address              which have existing contracts and
the distressed financial condition of Fannie Mae       commitments. Treasury’s challenge in this area
and Freddie Mac which are under the                    has changed from standing-up and running
conservatorship of the Federal Housing Finance         TARP programs to winding them down and
Agency. Among other things, in order to cover          recovering its investment. To date, Treasury has
the continuing losses of the two entities and          reported positive returns from the sale of its
their ability to maintain a positive net worth,        investments in the banking industry and has
Treasury agreed to purchase senior preferred           begun reducing its investment in American
stock as necessary, and as of June 30, 2011,           International Group.
invested $164 billion in the two entities.
Treasury also purchased $225 billion of                Anti-Money Laundering and Terrorist
mortgage-backed securities issued by the two           Financing/Bank Secrecy Act Enforcement
entities under a temporary purchase program
that expired in December 2009. In March 2011,          Ensuring criminals and terrorists do not use our
Treasury began to wind down its mortgage-              financial networks to sustain their operations
backed securities portfolio and has steadily           and/or launch attacks against the U.S. continues
reduced the portfolio by about $10 billion a           to be a challenge. Treasury’s Office of
month. The remaining principal outstanding is          Terrorism and Financial Intelligence is
approximately $60 billion. Even with Treasury’s        dedicated to disrupting the ability of terrorist
assistance, the future of both entities remains in     organizations to fund their operations. This
question and prolonged assistance may be               office brings together intelligence gathering and
required. Additionally, the legislative process for    analysis, economic sanctions, international
housing finance reform is in an early stage and it     cooperation, and private-sector cooperation to
is difficult to predict what lies ahead for winding    identify donors, financiers, and facilitators
down the Fannie Mae and Freddie Mac                    supporting terrorist organizations, and disrupts
conservatorships and reforming housing finance         their ability to fund them. Treasury carries out
in the long run.                                       its responsibilities to enhance financial
                                                       transparency through the Bank Secrecy Act
TARP, established under EESA, gave Treasury            (BSA) and USA Patriot Act. The Financial
the authorities necessary to bolster credit            Crimes Enforcement Network (FinCEN) is the
availability and address other serious problems        Treasury bureau responsible for administering
in the domestic and world financial markets.           BSA.
Treasury’s Office of Financial Stability
administers TARP, and through several of its           Over the past decade, the Treasury’s Office of
programs, made purchases of direct loans and           Terrorism and Financial Intelligence has made
equity investments in a number of financial            progress in closing the vulnerabilities that
institutions and other businesses, as well as          allowed money launderers and terrorists to use
guaranteed other troubled mortgage-related and         the financial system to support their activities.
financial assets. Authority to make new                Nonetheless, significant challenges remain. One
investments under the TARP program expired             challenge is ensuring the continued cooperation


        Treasury Office of Inspector General Semiannual Report—September 2011                       5
                                            Treasury’s Management and Performance Challenges

and coordination of all the organizations              through an IRS system. FinCEN’s BSA IT
involved in its anti-money laundering and              Modernization program, begun in 2008, is being
combating terrorist financing efforts. Many of         built to ensure efficient management,
these entities also participate in efforts to ensure   safeguarding, and use of BSA information. This
compliance with U.S. foreign sanction programs         program, which we believe is needed, has yet to
administered by Treasury’s Office of Foreign           reach a point of broad-based integration testing
Assets Control. Neither FinCEN nor the Office          and is highly dependent on continued funding, a
of Foreign Assets Control has the resources or         challenge for many programs today.
capability to maintain compliance with their
programs without significant help from these           FinCEN has a particularly difficult challenge in
other organizations. To this end, Treasury has         dealing with money services businesses (MSB).
entered into memoranda of understanding with           FinCEN has taken steps to improve MSB
many federal and state regulators in an attempt        examination coverage and compliance. In the
to build a consistent and effective process.           past year, FinCEN has finalized new rules and
While important to promote the cooperation             increased enforcement designed to ensure
and coordination needed, it should be noted            MSBs comply with BSA requirements, including
that these instruments are nonbinding and carry        registration and report filing requirements.
no penalties for violations, and their overall         However, ensuring MSBs register with FinCEN
effectiveness has not been independently               has been a continuing challenge. Furthermore,
assessed.                                              IRS serves as the examining agency for MSBs
                                                       but has limited resources to inspect MSBs or
Last year, financial institutions filed                identify unregistered MSBs.
approximately 15 million BSA reports, including
over 1.3 million suspicious activity reports.          FinCEN has also been concerned with MSBs
While the number of suspicious activity reports        that use informal value transfer systems and
has been increasing since 2001, FinCEN needs           with MSBs that issue, redeem, or sell prepaid
to continue its efforts to work with regulators        access. MSBs using informal value transfers
and examining agencies to ensure that financial        have been identified in a number of attempts to
institutions establish effective BSA compliance        launder proceeds of criminal activity or finance
programs and file accurate and complete BSA            terrorism. This past summer, FinCEN issued a
reports, as required. Furthermore, FinCEN still        final rule applying customer identification,
needs to complete work to issue anti-money             recordkeeping, and reporting obligations to
laundering regulations as it determines                providers and sellers of prepaid access.
appropriate for some non-bank financial                Ensuring compliance with these rules will be a
institutions, such as vehicle dealers;                 major challenge.
pawnbrokers; travel agents; finance companies;
real estate closing and settlement services; and       To detect possible illicit wire transfer use of the
financial services intermediaries, such as             financial system, FinCEN also proposed a
investment advisors.                                   regulatory requirement for certain depository
                                                       institutions and MSBs to report cross-border
BSA data is currently maintained by IRS and            electronic transmittals of funds. However, such
access to the database is generally handled            a system cannot be fully implemented until


        Treasury Office of Inspector General Semiannual Report—September 2011                         6
                                          Treasury’s Management and Performance Challenges

FinCEN completes its work on its BSA IT               Data center consolidation
Modernization project, scheduled for 2014.
                                                      The Office of Management and Budget initiated
                                                      the Federal Data Center Consolidation Initiative
Management of Capital Investments                     to reduce the number of federal data centers.
Managing large capital investments, particularly      Treasury had over 60 data centers around the
IT investments, is a difficult challenge for any      country and during fiscal year 2011 closed 3.
organization, whether public or private. As a         Treasury plans to close 12 more by 2015.
new development, after several years of               Treasury’s ability to successfully accomplish this
attempting to centrally manage large                  is contingent on adapting shared infrastructure
infrastructure investments at the Department          services.
level, Treasury has announced that it will
de-consolidate all infrastructure investments to      FinCEN BSA IT Modernization
the bureaus. This move is intended to improve
                                                      FinCEN’s BSA IT Modernization is expected to
efficiency and transparency, cost savings and
                                                      cost about $120 million and be completed in
avoidance, and overall governance.
                                                      2014. A prior attempt, from 2004 to 2006, to
                                                      develop a new BSA system ended in failure with
In prior years, we reported on a number of
                                                      over $17 million wasted. However, early
capital investment projects that either failed or
                                                      indications from our audit work are that project
had serious problems. This year, we continue to
                                                      management is much improved for this effort.
identify challenges with ongoing IT
investments.
                                                      It remains to be seen whether Treasury’s
                                                      decision to de-consolidate all infrastructure
Replacement telecommunications platform               investments will improve efficiency and
Treasury plans to spend $3.7 billion on its           transparency, cost savings and avoidance, and
Information Technology Infrastructure                 overall governance as intended.
Telecommunications Systems and Services
investment. While the Treasury Network (TNet)         Matter of Concern
has become operational across Treasury, it is
                                                      Our memorandum also highlighted an area of
not yet fully compliant with Federal security
                                                      increasing concern – information security.
requirements, among other things.
                                                      We reported information security as a serious
Common identity management system
                                                      management and performance challenge at
The Treasury Enterprise Identity, Credential          Treasury for a number of years but removed the
and Access Management (TEICAM) is a $147              challenge in 2009. We did so because Treasury
million effort to implement requirements for a        had made significant strides in improving and
common identity standard. Treasury has                institutionalizing its information security
reported that the system was $40 million over         controls. We believe that remains the case
planned costs.                                        today. However, notwithstanding Treasury’s
                                                      strong security stance, cyber attacks against
                                                      federal government systems by foreign


       Treasury Office of Inspector General Semiannual Report—September 2011                        7
                                          Treasury’s Management and Performance Challenges

governments and the hacker community are
unrelenting and increasing. Treasury’s
information systems are critical to the Nation,
and thus potential targets of those wishing to do
grave harm. Accordingly, this is a very troubling
situation that requires the highest level of
continual attention to ensure that information
security policies remain current and practices do
not deteriorate.




       Treasury Office of Inspector General Semiannual Report—September 2011           8
                                                       period July 1, 2010, to June 30, 2011; (2) these
Office of Audit – Significant                          controls were suitably designed; and (3) the
Audits and Other Products                              controls tested operated effectively throughout
                                                       the period July 1, 2010, to June 30, 2011.
Financial Management                                   (OIG-11-097)

Reports on the Processing of                           KPMG LLP, under our supervision, performed
Transactions by Bureau of the Public                   examinations that covered (1) the general
Debt                                                   computer and trust funds management
                                                       processing controls used for various federal and
We completed three reports described below in          state agencies’ transactions by the Bureau of the
support of the audit of Treasury’s fiscal year         Public Debt’s Trust Funds Management
2011 consolidated financial statements and the         Branch, and (2) general computer and
financial statement audits of certain other            investment/redemption processing controls
federal agencies.                                      used for various federal agencies’ transactions
                                                       by the bureau’s Federal Investments Branch.
KPMG LLP, under our supervision, examined              KPMG LLP found, in all material respects, that
the accounting and procurement processing,             (1) the description of controls for these
and general computer controls related to               activities fairly presented the controls that were
financial management services provided to              designed and implemented throughout the
various federal agencies by the Bureau of the          period August 1, 2010, to July 31, 2011;
Public Debt’s Administrative Resource Center.          (2) these controls were suitably designed; and
KPMG LLP found, in all material respects, that         (3) the controls tested operated effectively
(1) the description of controls for these              throughout the period August 1, 2010, to
activities fairly presented the controls that were     July 31, 2011. (OIG-11-107, OIG-11-108).
designed and implemented throughout the




        Treasury Office of Inspector General Semiannual Report—September 2011                        9
                                                                Office of Audit – Significant Audits and Other Products

Audits of the fiscal year 2011 financial statements or schedules of the Department and component
reporting entities were in progress at the end of this semiannual reporting period. The following table
shows audit results for fiscal years 2010 and 2009.

Treasury-audited financial statements and related audits
                                     Fiscal year 2010 audit results                                    Fiscal year 2009 audit results

                                                        Material          Other                                          Material                  Other
                                                        weak-             significant                                    weak-                     significant
Entity                               Opinion            nesses            deficiencies                 Opinion           nesses                    deficiencies
Government Management Reform Act/Chief Financial Officers Act requirements
Department of the Treasury              UQ                 1                                      3               UQ                        2                     2
Internal Revenue Service (A)            UQ                 2                                      1               UQ                        2                     0
Other required audits
Department of the Treasury’s
Special-Purpose Financial
Statements                                       UQ                  0                            0                 Q                       1                     0
Office of Financial Stability
(TARP) (A)                                       UQ                  0                            1               UQ                        0                     2
Bureau of Engraving and Printing                 UQ                  0                            0               UQ                        0                     0
Community Development
Financial Institutions Fund                      UQ                  0                            1               UQ                        0                     3
Office of DC Pensions                            UQ                  0                            1               UQ                        0                     0
Exchange Stabilization Fund                      UQ                  0                            1               UQ                        0                     1
Federal Financing Bank                           UQ                  0                            0               UQ                        0                     0
Office of the Comptroller of the
Currency                                         UQ                  0                            0               UQ                        0                     0
Office of Thrift Supervision                     UQ                  0                            0               UQ                        0                     0
Treasury Forfeiture Fund                         UQ                  0                            0               UQ                        0                     0
United States Mint
   Financial statements                          UQ                  0                            0               UQ                        0                     0
   Custodial gold and silver
   reserves                                      UQ                  0                            0               UQ                        0                     0
Other audited accounts that are material to Treasury financial statements
Bureau of the Public Debt
Schedule of Federal Debt (A)                  UQ                 0                                0               UQ                        0                     0
Government trust funds                        UQ                 0                                0               UQ                        0                     0
Financial Management Service
   Treasury-managed accounts                  UQ                 0                                1               UQ                        0                     1
   Operating cash of the federal
   government                                 UQ                 0                                1               UQ                        0                     1
Management-initiated audit
Financial Crimes Enforcement
Network                                           UQ                 0                            0               UQ                        0                     0
Alcohol and Tobacco Tax and
Trade Bureau                                      UQ                 1                            0               UQ                        2                     0
UQ      Unqualified opinion
Q       Qualified opinion due to omission of a required disclosure and misstatement of certain account balances in the financial statement notes
(A)     Audited by the Government Accountability Office




            Treasury Office of Inspector General Semiannual Report—September 2011                                                                           10
                                                          Office of Audit – Significant Audits and Other Products

The following instances of noncompliance with the Federal Financial Management Improvement Act of
1996, which all relate to IRS, were reported in connection with the audit of the Department’s fiscal year
2010 consolidated financial statements. The status of these areas of noncompliance, including progress
in implementing remediation plans, will be evaluated as part of the audit of Treasury’s fiscal year 2011
financial statements.

                                                                                                                            Type of
Condition                                                                                                                   noncompliance
Persistent deficiencies in internal control over information security remain uncorrected. As a result of these              Federal financial
deficiencies, IRS was (1) unable to rely upon these controls to provide reasonable assurance that its financial             management systems
statements are fairly stated in the absence of effective compensating procedures, (2) unable to ensure the reliability of   requirements
other financial management information produced by its systems, and (3) at increased risk of compromising
confidential IRS and taxpayer information. (first reported in fiscal year 1997)
Automated systems for tax related transactions did not support the net taxes receivable amount on the balance sheet         Federal accounting
and other required supplemental information related to uncollected taxes–compliance assessments and tax write-offs–         standards
in accordance with Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting. (first reported in fiscal year
1997)


Information Technology                                                           rendering Treasury unable to pursue reasonable
                                                                                 remedies or terminate the contract for default.
Treasury’s Contract Management of TNet Was                                       Furthermore, even after delivery dates were
Poor                                                                             subsequently incorporated in task order
                                                                                 modifications, Treasury still did not pursue
TNet currently provides Treasury; its bureaus;                                   available remedies to enforce the terms and
other non-Treasury financial, enforcement and                                    conditions of the task order, essentially
economic organizations; and on-site contractors                                  assuming responsibility for late delivery.
with telecommunication services. We are                                          Ultimately, the lack of effective leadership
reviewing, in phases, whether Treasury’s                                         resulted in a poorly written, poorly planned, and
implementation of TNet was based on sound                                        poorly executed task order. Finally, we believe
and effective contract management, project                                       that inadequate contractor performance resulted
management, security management and                                              in additional costs of $33 million to Treasury.
transition management. This report covered the
results of our review of Treasury’s contract                                     The Treasury Chief Information Officer
management and project management phase of                                       concurred with our recommendations to
the project.                                                                     (1) determine whether damages resulting from
                                                                                 certain contractor delays are legally available
We concluded that Treasury’s contract and                                        and, if so, to pursue them; and (2) implement
project management of TNet was poor.                                             measures to improve the contract and project
Specifically, TNet’s statement of work included                                  management of TNet and future information
in the task order did not protect the                                            technology acquisitions. (OIG-11-106)
government’s interest to obtain a timely
enterprise network at the least possible cost.
Critical system security requirements and key
delivery dates were omitted from the task order


           Treasury Office of Inspector General Semiannual Report—September 2011                                                                 11
                                         Office of Audit – Significant Audits and Other Products

Bureau of Engraving and Printing’s Network            Fiscal Year 2011 Audit of Treasury’s Federal
and Systems Security Was Insufficient                 Information Security Management Act
                                                      Implementation for Its Intelligence Systems
The Bureau of Engraving and Printing (BEP)
did not establish sufficient protection for its       The Federal Information Security Management
network and systems and should enhance its            Act requires each inspector general to perform
security controls to protect against threats          an annual independent evaluation of its agency
posed by malicious insiders. Specifically, during     information security program and practices for
our social engineering exercise, we successfully      national security systems. We performed the
persuaded 23 BEP users to give us access to           fiscal year 2011 audit of Treasury’s information
their computers using their accounts. While           security program and practices for its
impersonating BEP contractors with unescorted         intelligence systems. We determined that
access to the facility, every user whom we            Treasury has made notable progress in
approached gave us full access to their               implementing information security programs
computer without challenge. In fact, in one           and practices for its intelligence systems, but
instance, a BEP employee observed us standing         additional improvements are needed. Due to the
at the door to a restricted area. Rather than         sensitive nature of these systems, our report was
question our presence, he opened the door and         designated Unclassified/For Official Use Only.
let us in, giving us unescorted access to the         (OIG-11-098)
entire administrative area.

Our work also identified significant deficiencies
in BEP’s network and systems related to its           Programs and Operations
patch management processes and system
configurations. Specifically, we found critical       Review of CFPB Implementation Planning
vulnerabilities because of a number of missing        Activities
security patches, some more than 1 year old.
                                                      Dodd-Frank established CFPB as an
                                                      independent agency within the Federal Reserve
Finally, we noted that BEP did not fully comply
                                                      System. Dodd-Frank provided CFPB with the
with the Office of Management and Budget
                                                      authority to implement and, as applicable,
Memorandum M-10-22, “Guidance for Online
                                                      enforce federal consumer financial law
Use of Web Measurement and Customization
                                                      consistently to ensure that all consumers have
Technologies.” This memorandum emphasizes
                                                      access to markets for financial products and
the need to safeguard the privacy of the
                                                      services, and that these markets are fair,
American public while increasing the Federal
                                                      transparent, and competitive.
Government’s ability to serve the public by
improving and modernizing its activities online.
                                                      In anticipation of the July 21, 2011, the date
                                                      established pursuant to Dodd-Frank for CFPB
BEP management’s planned corrective actions
                                                      to open its doors for business, we conducted a
were responsive to our 13 recommendations
                                                      joint evaluation with the FRB OIG on the
addressing the above conditions. (OIG-11-112)
                                                      implementation planning activities for CFPB.
                                                      We conducted our evaluation as part of our

       Treasury Office of Inspector General Semiannual Report—September 2011                         12
                                          Office of Audit – Significant Audits and Other Products

respective offices’ joint oversight                    secured nonproduction areas that have limited
responsibilities of CFPB. We concluded that            and controlled access, (2) evaluate the policy
CFPB identified and documented                         and practices to retain video and digital
implementation activities critical to standing up      recordings at ECF and WCF in light of
the agency’s functions necessary to address            potential long-term storage needs of the
certain Dodd-Frank requirements. Furthermore,          NexGen $100 finished notes and work-in-
CFPB developed and is implementing                     process sheets, and (3) ensure that written
appropriate plans that support ongoing                 security risk assessments and area security plans
operations as well as the transfer of employees        at ECF are updated and regularly re-certified in
and functions that occurred on July 21, 2011. In       accordance with BEP policy.
addition, CFPB communicated its planning and
implementation of standup activities to internal       In a written response, BEP management
stakeholders, and provided information to other        provided the corrective actions taken, which
consumer regulatory agencies regarding its             included securing the NexGen $100 finished
transfer planning. Nevertheless, CFPB’s                notes and work-in-process sheets at ECF, and
operational success will depend, in part, on its       corrective actions planned. We believe these
ability to effectively execute its plans.              actions are responsive to the intent of our
(OIG-11-088)                                           recommendations and we verified the corrective
                                                       actions implemented as of the date of the
Improved BEP Security Over NexGen $100                 report. (OIG-11-068)
Notes Is Necessary
                                                       CDFI Fund Awards to OneUnited Bank
As part of our audit of the BEP’s production
process for the NexGen $100 notes, we noted            We performed an audit of the CDFI Fund to
deficiencies related to the physical security over     determine whether the awards and assistance
the NexGen $100 finished notes and work-in-            provided to OneUnited Bank were made in
process sheets at the Eastern Currency Facility        compliance with applicable laws, regulations,
(ECF) and Western Currency Facility (WCF).             and CDFI Fund policies and procedures. We
We found (1) inadequate security over finished         undertook this audit because of media reports
notes and work-in-process sheets at ECF,               surrounding OneUnited and Congresswoman
(2) inadequate and inconsistent retention              Maxine Waters’ financial interest in the
requirements for security video and digital            institution.
recordings at both ECF and WCF, and (3) the
lack of updated operational security plans to          We concluded that the CDFI Fund made its
address security matters over the NexGen $100          awards and provided assistance to OneUnited in
notes at ECF. We considered these matters              accordance with applicable laws, regulations,
serious enough to warrant immediate corrective         and fund policies and procedures. However, as
action by BEP.                                         discussed with CDFI Fund officials during the
                                                       course of our work, we disagreed with the
To address these matters, we recommended that          decision by the CDFI Fund to hold its
BEP (1) safeguard all NexGen $100 finished             announcement of OneUnited’s fiscal year 2010
notes and work-in-process sheets at ECF in             Bank Enterprise Award pending completion of


        Treasury Office of Inspector General Semiannual Report—September 2011                       13
                                         Office of Audit – Significant Audits and Other Products

this audit. In our view, since the application         banking agencies to take specific supervisory
review and award approval process had taken            actions in response to certain circumstances. 1
place before this audit began, the
announcement of OneUnited’s fiscal year 2010           Section 38 also requires the inspector general
award should have been made commensurate               for the primary federal regulator 2 of a failed
with the CDFI Fund’s announcement of the               financial institution conduct a material loss
other fiscal year 2010 awards.                         review (MLR) when the estimated loss to the
                                                       DIF is “material.” An MLR requires that we
During our audit, we identified the following          determine the causes of the failure and assess
issues that require action by the CDFI Fund;           the supervision of the institution, including the
(1) policies and procedures are needed for             implementation of the Section 38 PCA
assessing regulatory enforcement actions when          provisions. Section 38, as amended by the
considering Bank Enterprise Award                      Dodd-Frank, defines a material loss as a loss to
applications; (2) qualified activity for the award     the DIF that exceeds $200 million for 2010 and
program needs clarification; (3) improved              2011, $150 million for 2012 and 2013, and
verification is needed of Bank Enterprise Award        $50 million in 2014 and thereafter, with a
applicant compliance with distressed                   provision for increasing the threshold to
community requirements; and (4) the equity             $75 million under certain circumstances.
investment policy does not have an exit strategy.      Section 38 also requires a review of all bank
CDFI Fund management generally agreed with             failures with losses under those threshold
our recommendations and its corrective actions,        amounts for the purposes of (1) ascertaining the
both taken and planned, were responsive to the         grounds identified by OCC and formerly, OTS,
recommendations. (OIG-11-091)                          for appointing FDIC as receiver, and
                                                       (2) determining whether any unusual
Failed Bank Reviews                                    circumstances exist that might warrant a more
                                                       in-depth review of the loss. This provision
In 1991, Congress enacted the Federal Deposit
Insurance Corporation Improvement Act
following the failures of about a thousand banks
and thrifts from 1986 to 1990. Among other
things, the act added Section 38, Prompt
Corrective Action (PCA), to the Federal                1 Prompt corrective action is a framework of supervisory
                                                       actions for insured institutions that are not adequately
Deposit Insurance Act. PCA requires federal
                                                       capitalized. It was intended to ensure that action is taken
                                                       when an institution becomes financially troubled in order
                                                       to prevent a failure or minimize resulting losses. These
                                                       actions become increasingly more severe as the institution
                                                       falls into lower capital categories. The capital categories
                                                       are well-capitalized, adequately capitalized,
                                                       undercapitalized, significantly undercapitalized, and
                                                       critically undercapitalized.
                                                       2 Within Treasury, OCC is the regulator for national
                                                       banks. Effective July 21, 2011, OCC assumed the
                                                       regulatory responsibility for federal savings associations
                                                       that were previously regulated by OTS.


        Treasury Office of Inspector General Semiannual Report—September 2011                                 14
                                                   Office of Audit – Significant Audits and Other Products

applies to bank failures from October 1, 2009,                  timely and effective enforcement action. We
forward. 3                                                      also found that in assessing these institutions,
                                                                examiners regularly gave too much weight to
From the beginning of the current economic                      profitability and performing loans and not
crisis in 2007 through September 2011, FDIC                     enough to the amount of risk these institutions
and other banking regulators closed nearly 400                  had taken on. We also noted that regulators
banks and thrifts. Treasury was responsible for                 took the appropriate PCAs when warranted but
regulating 113 of those institutions. Of the 113                those actions did not prevent a material loss to
failures, 54 resulted in a material loss to the                 the DIF.
DIF, including 3 new bank failures requiring an
MLR during this semiannual period. In prior                     Material Loss and In-depth Reviews
semiannual reports, we completed and reported
on 21 MLRs. During this semiannual reporting                    As mentioned before, during this reporting
period, we completed another 20 MLRs and                        period, we completed 20 MLRs on Treasury-
one in-depth review.                                            regulated institutions whose failures resulted in
                                                                material losses to the DIF. We also completed
As previously reported, from the MLRs we have                   an in-depth review of another failed institution.
completed, we have seen a number of trends                      The most significant of these failures in terms
emerge. With respect to the causes of these                     of FDIC-estimated losses were the OTS-
institutions’ failures, we found significant losses             regulated AmTrust Bank, Guaranty Bank, and
in loan portfolios, poor underwriting and overly                La Jolla Bank with $2.5 billion, $1.3 billion, and
aggressive growth strategies fueled by volatile                 $1 billion in estimated losses, respectively.
and costly wholesale funding (e.g., brokered                    These three failed thrifts supervised by the
deposits, Federal Home Loan Bank loans); risky                  former OTS are highlighted below. A list of the
lending products such as option adjustable rate                 20 MLRs and 1 in-depth review completed
mortgages; high asset concentrations; and                       during this semiannual period is provided in the
inadequate risk management systems. In                          Statistical Summary section.
addition, the management and boards of these
institutions were often ineffective. The                        Material Loss Review of AmTrust Bank (closed
economic recession and the decline in the real                  December 4, 2009; estimated loss to the DIF -
estate market were also factors in most of the                  $2.5 billion)
failures.
                                                                AmTrust failed because of significant losses in
                                                                its loan portfolio. The loans were highly
With respect to OCC’s and OTS’s supervision,
                                                                concentrated in acquisition, development, and
we found that both regulators conducted
                                                                construction loans, high-risk residential
regular and timely examinations and identified
                                                                mortgage loans, and also highly concentrated in
operational problems, but were slow to take
                                                                several depressed real estate markets. AmTrust’s
                                                                board and management did not establish
3 Prior to Dodd-Frank, an MLR was required if loss to
the DIF from a bank failure exceeded the greater of             appropriate risk management controls and
$25 million or 2 percent of the institution’s total assets.     practices over its loan portfolio. AmTrust also
There was also no requirement for us to review bank             did not maintain adequate capital to compensate
failures with losses less than this threshold.
                                                                for the portfolio’s risk. AmTrust’s net losses

         Treasury Office of Inspector General Semiannual Report—September 2011                                15
                                         Office of Audit – Significant Audits and Other Products

exceeded $513 million in 2008 and $308 million         We found that from 2004 through 2007, both
in 2009.                                               the thrift and OTS relied on the AAA ratings
                                                       and considered the risk of purchasing AAA-
OTS’s supervision of AmTrust was not                   rated, non-agency mortgage-backed securities to
adequate to prevent a material loss to the DIF.        be minimal. As losses associated with the non-
From 2005 through 2007, OTS identified                 agency mortgage-backed securities mounted,
AmTrust’s high-risk concentrations in                  OTS started taking enforcement actions in 2008
acquisition, development, and construction             and issued a formal cease and desist order in
loans and nontraditional residential mortgage          April 2009. In August 2009, OTS took the
loans, and was concerned with its capital              required PCA actions in a timely manner as
adequacy. However, OTS’s supervisory                   Guaranty’s reported capital levels fell below
approach during those years was primarily to           adequately capitalized. However, these actions
rely on examiner recommendations and matters           were unable to save the thrift. (OIG-11-066)
requiring board attention in the reports of
examination.                                           Material Loss Review of La Jolla Bank, FSB
                                                       (closed February 19, 2010; estimated loss to the
In November 2008, when OTS concluded                   DIF - $1 billion)
stronger action was needed to address
AmTrust’s problems, it issued a cease-and-             La Jolla Bank failed because of significant asset
desist order (a formal/public enforcement              quality deterioration and loan losses. This
action) that required AmTrust to increase              condition resulted from La Jolla Bank’s
capital levels. By the time OTS issued the cease-      aggressive growth in high-risk construction,
and-desist order, however, AmTrust’s problems          land, and commercial loans during the period
had become too large and severe to resolve.            2002 to 2008. Thrift management failed to
(OIG-11-076)                                           maintain proper internal controls, and the board
                                                       did not appropriately oversee the thrift’s lending
Material Loss Review of Guaranty Bank (closed          activities. La Jolla Bank officials attempted to
August 21, 2009; estimated loss to the DIF -           resolve problem loans by making improper loan
$1.3 billion)                                          modifications and extensions, which made loans
                                                       with late payments appear current. Potential
Guaranty failed primarily because of losses in its     fraud and other misconduct by the chief
non-agency mortgage-backed securities                  executive officer and chief credit officer
portfolio. That portfolio consisted of a high          brought to the attention of the board’s audit
concentration of California option adjustable          committee by the thrift’s internal auditor in July
rate mortgages. With respect to its supervision        2009, likely contributed to La Jolla Bank
of Guaranty, OTS failed to recognize the risks         adopting its unsafe and unsound operating
associated with the thrift’s investment strategy       strategy. At the time of our review, OTS and
until 2008, primarily because the non-agency           FDIC were investigating potentially fraudulent
mortgage-backed securities that Guaranty               activity and improper behavior by the thrift’s
bought were graded AAA by credit rating                officers. We also referred these matters and
agencies.                                              related documentation to OIG’s Office of
                                                       Investigations.


        Treasury Office of Inspector General Semiannual Report—September 2011                        16
                                        Office of Audit – Significant Audits and Other Products

                                                      Other Banking-Related Work
With respect to OTS’s supervision, we found
that OTS conducted timely and regular                 Transfer of OTS Functions
examinations of La Jolla Bank. In 2004 and
                                                      Intended to streamline the supervision of
subsequent examinations, OTS identified
                                                      depository institutions and holding companies,
concerns with La Jolla Bank’s business plan,
                                                      Dodd-Frank transferred the powers and duties
loan policies, and internal controls. OTS
                                                      of OTS to OCC, FRB, and FDIC effective
generally addressed its concerns through
                                                      July 21, 2011. As required by Dodd-Frank, we
matters requiring board attention and corrective
                                                      and the OIGs of FRB and FDIC completed
actions. Field visits, however, were not
                                                      two reviews on the transfer during 2011. The
performed in between these examinations to
                                                      first review, completed in March 2011 and
ensure the thrift was taking the necessary
                                                      discussed in our prior semiannual report,
corrective actions. Also, it was not until the
                                                      reported that the Joint Implementation Plan
December 2008 examination that examiners
                                                      (Plan) by FRB, FDIC, OCC, and OTS for the
determined management practices and board
                                                      transfer was generally adequate. The second
oversight were inadequate, particularly in the
                                                      review, completed in September 2011, reported
key areas of loan underwriting and credit
                                                      on the status of the implementation of the Plan.
administration. (OIG-11-086)
                                                      We concluded that FRB, FDIC, OCC, and OTS
Nonmaterial Loss Reviews
                                                      have substantially implemented the actions in
During this semiannual reporting period, nine         the Plan that were necessary to transfer OTS
OCC- or OTS-regulated financial institutions          functions, employees, funds, and property to
failed with losses below $200 million, the            FRB, FDIC, and OCC, as appropriate. Certain
current threshold triggering an MLR. We               aspects of the Plan, as discussed below, are
determined that there were no unusual                 ongoing or were not yet required to be
circumstances surrounding the failures or the         completed.
supervision exercised by OTS or OCC that
would warrant a more in-depth review of the           In our March 2011 report, we reported that,
failures by our office. Additional information on     while not impacting our overall conclusion on
the nine failures is provided in the “Bank            the Plan, certain details needed to be worked
Failures and Nonmaterial Loss Reviews”                out to ensure that OTS employees were not
section of this report.                               unfairly disadvantaged and an orderly transfer
                                                      of OTS powers, authority, and employees could
During the period, we issued nine final audit         be effectively accomplished. For example,
reports on our nonmaterial loss reviews. A list       neither the number of employees to be
of these audit reports is provided in the             transferred to OCC nor the assignment of
Statistical Summary section.                          functions for those employees had been
                                                      finalized at the completion of our last review.
                                                      Those details have largely been resolved with
                                                      the exception that the Acting Director of OTS
                                                      has not yet received a notice of position
                                                      assignment from OCC. In this regard, OCC has

       Treasury Office of Inspector General Semiannual Report—September 2011                      17
                                            Office of Audit – Significant Audits and Other Products

    120 days after the date the Acting Director is       •     Regulators took action to address safety and
    transferred to OCC to issue the notice. Such               soundness concerns before
    transfer must occur not later than 90 days after           undercapitalization but after financial decline
    the transfer date (July 21, 2011).                         occurred.
                                                         •     Regulators made limited use of Section 39 to
    Our March 2011 report also identified a                    address asset quality and management
    concern expressed by OTS officials related to              deficiencies.
    additional OCC certification requirements in         •     Critically undercapitalized institutions were
    order to qualify to lead examinations of national          closed promptly, but overall losses were
    banks, in addition to savings associations. OCC
                                                               significant.
    is addressing this matter with a project to
    develop a cross-credentialing process for both
                                                             To improve the effectiveness of the Prompt
    OCC and former OTS examiners, but has not
                                                             Regulatory Action framework and to meet the
    estimated a date for its completion.
                                                             Section 38 and 39 goals of identifying problems
    (OIG-11-109)
                                                             early and minimizing losses to the DIF, we
                                                             recommend that FDIC, FRB, and OCC review
    As required by Dodd-Frank, we will continue to
                                                             the matters for consideration presented in our
    report jointly with the OIGs of FRB and FDIC
                                                             report and work through FSOC to determine
    on the status of the Plan every 6 months until
                                                             whether the Prompt Regulatory Action
    all aspects of the Plan have been implemented.
                                                             legislation or implementing regulations should
                                                             be modified. The specific matters for
    Evaluation of Prompt Regulatory Action
                                                             consideration are (1) develop specific criteria
    We performed a joint evaluation with the OIGs            and corresponding enforcement actions for
    of FDIC and FRB on the use of PCA and safety             non-capital factors, (2) increase the minimum
    and soundness provisions of the Federal                  PCA capital levels, and (3) continue to refine
    Deposit Insurance Act (Sections 38 and 39,               the deposit insurance system for banks with
    respectively, and referred to as Prompt                  assets under $10 billion to assess greater
    Regulatory Action in our joint report) by the            premiums commensurate with risk-taking.
    federal banking agencies during the recent               (OIG-CA-11-008)
    economic crisis. While we found that PCA was
    appropriately implemented and helped                     Economic Analysis by OCC
    strengthen oversight to a degree, we also found:
                                                             We reviewed the economic analyses performed
                                                             by OCC related to its rulemaking activities to
•     Inherent limitations associated with PCA’s
                                                             implement Dodd-Frank. Our review was
      capital-based framework and the sudden and
                                                             conducted in response to a request for
      severe economic decline impacted PCA’s                 information we received from the Ranking
      effectiveness in resolving the problems of             Member and other members of the Senate
      institutions during this crisis.                       Committee on Banking, Housing, and Urban
•     Regulators identified deficiencies prior to            Affairs.
      declines in PCA capital categories.



           Treasury Office of Inspector General Semiannual Report—September 2011                          18
                                        Office of Audit – Significant Audits and Other Products

We found that OCC has processes in place to           Specified Energy Properties (1603 Program)
ensure that required economic analyses are
performed consistently and with rigor in              As part of our audit of Treasury’s Section 1603
connection with its rulemaking authority.             Program, we audited selected recipients to
Furthermore, we found that those processes            determine whether the specified energy
were followed for the three proposed rules we         properties existed, were placed-in-service within
reviewed. OCC concurred with our                      the eligible timeframes, and the award amounts
recommendations to (1) develop procedures to          were appropriate. During this semiannual
ensure the coordination between the groups            period, we issued several audit reports on wind
calculating administrative burden for various         facilities and solar companies. These audits
analyses, and (2) update internal guidance to         resulted in questioned award amounts of
reflect the current statutory environment             approximately $2.1 million, the results of which
governing the rulemaking and related economic         are highlighted below.
analysis processes, and develop related written
procedures. Additionally, we noted that there         EcoGrove Wind LLC
was no formal process in place that provides for
coordination on economic analyses between             We found that the EcoGrove’s subject property
OCC and the other federal banking agencies.           existed and was placed in service within the
(OIG-CA-11-006)                                       eligible timeframe. However, we found that the
                                                      award amount was not appropriate. We
Recovery Act Audits                                   questioned $2,080,452 of EcoGrove’s award as
                                                      a result of identifying $6,934,838 of
During this semiannual period, we issued six          questionable costs included in EcoGrove’s 1603
audit reports as part of our ongoing oversight of     Program claim. We believed this claim did not
Treasury’s more than $20 billion of non-IRS           comply with Treasury Regulation §1.263A-1 as
spending authority under the Recovery Act. We         these costs were neither a direct nor allocable
consider our Recovery Act oversight one of our        indirect cost of producing the property and
highest priorities. Accordingly, we continue to       should not have been included in the subject
conduct proactive audits of recipients of funds       property’s cost basis. EcoGrove management
disbursed as part of the Treasury’s two major         did not agree with all the costs that we
Recovery Act programs: Payments to States in          questioned and agreed to reimburse only
Lieu of Tax Credits for Low Income Housing            $35,479 of its award to Treasury.
(Section 1602) and Payments in Lieu of Tax
Credits for Specified Energy Properties (Section      We recommended that the Fiscal Assistant
1603). As of September 2011, Treasury has             Secretary (1) ensure that EcoGrove reimburse
disbursed approximately $13 billion to                Treasury $2,080,452 for the excessive 1603
approximately 20,000 recipients; we have              Program payment received for the subject
initiated reviews of 103 Recovery Act payment         property and (2) direct EcoGrove and affiliated
recipients valued at approximately $2 billion.        companies not to include in applications for
                                                      1603 Program awards inappropriate or
                                                      otherwise ineligible costs in the claimed cost
                                                      basis. Treasury management agreed in part with
                                                      our findings, related to the reimbursement of

       Treasury Office of Inspector General Semiannual Report—September 2011                       19
                                         Office of Audit – Significant Audits and Other Products

$35,479 of EcoGrove’s 1603 Program award,              Nevada Solar One LLC
but could not make a determination with
respect to the remainder of the questioned costs       We found that Nevada Solar’s subject property
without further analysis. We consider this an          existed and was placed in-service within the
open recommendation and will follow up on a            eligible timeframe. However, we questioned
management decision in 6 months.                       $24,257 of costs included in Nevada Solar’s
(OIG-11-103)                                           reported cost basis that we believed did not
                                                       comply with Treasury Regulation §1.263A-1.
Sierra SunTower LLC                                    We questioned $7,277 of Treasury’s 1603
                                                       Program award to Nevada Solar (30 percent of
In the case of Sierra SunTower, we found that          $24,257). Nevada Solar management concurred
the subject property existed and was placed in         with our findings but did not agree with all of
service within the eligible timeframe. However,        the costs questioned.
we questioned $117,497 of costs included in
Sierra SunTower’s reported cost basis that we          We recommended that the Fiscal Assistant
believed did not comply with Treasury                  Secretary (1) ensure that Nevada Solar
Regulation §1.263A-1 as these costs were               reimburse Treasury $7,277 for the excessive
neither a direct nor allocable indirect cost of        1603 Program payment received for the subject
producing the property and should not have             property, and (2) direct Nevada Solar and
been included in the subject property’s cost           affiliated companies not to include in
basis. As a result, we questioned $35,249 of           applications for 1603 Program awards
Treasury’s 1603 Program award to Sierra                inappropriate or otherwise ineligible costs in the
SunTower (30 percent of $117,497). Sierra              claimed cost basis. Treasury agreed with our
SunTower management concurred with the                 recommendations and will take appropriate
costs that we questioned.                              action to seek full reimbursement from Nevada
                                                       Solar in the amount of $7,277. (OIG-11-093)
We recommended that the Fiscal Assistant
Secretary (1) ensure that Sierra SunTower              Inadale Wind Farm LLC
reimburse Treasury $35,249 for the excessive
1603 Program payment received for the subject          We found that Inadale’s subject property
property, and (2) direct Sierra SunTower and           existed and was placed in service within the
affiliated companies not to include in                 eligible timeframe. We found that the award
applications for 1603 Program awards                   amount was appropriate with one minor
inappropriate or otherwise ineligible costs in the     exception of $2,038 of unsupported costs
claimed cost basis. Treasury agreed with our           included in Inadale’s reported cost basis.
recommendations. (OIG-11-077) According to
the Department’s audit recommendation                  We recommended that the Fiscal Assistant
tracking system, the reimbursement has been            Secretary (1) ensure that Inadale reimburse
obtained.                                              Treasury $611 for the excess 1603 Program
                                                       payment received for the subject property (30
                                                       percent of $2,038), and (2) direct Inadale and
                                                       affiliated companies not to include in
                                                       applications for 1603 Program awards

        Treasury Office of Inspector General Semiannual Report—September 2011                         20
                                          Office of Audit – Significant Audits and Other Products

inappropriate or otherwise ineligible costs in the     applicable laws and regulations and consistency
claimed cost basis. Inadale agreed to reimburse        in evaluating and scoring funding applications,
Treasury the questioned cost of $611. Treasury         as well as ensuring reviewer guidance is
management agreed with our recommendations.            consistently followed, complete application files
(OIG-11-111)                                           are maintained, all assistance agreements are
                                                       reviewed for key schedules and proper
Pyron Wind Farm LLC                                    performance measures, and to correct the
                                                       agreements as appropriate. (OIG-11-071)
We determined that Pyron’s subject property
existed and was placed in service within the
eligible timeframe. After receiving clarification
from Treasury of certain applicable tax
provisions through its response to the draft of
this report, we are not questioning the eligibility
of costs claimed by Pyron in its reported cost
basis. (OIG-11-110)

CDFI Fund Administration of Recovery Act
Funds

Process for Awarding Assistance to Applicants
Needs Improvement

We assessed the CDFI Fund’s process for
awarding Recovery Act funds and report four
areas for improvement. Specifically, we found
(1) the CDFI Fund’s policies and procedures
did not comply with certain statutory
requirements of the Recovery Act and the
Riegle Community Development and
Regulatory Improvement Act of 1994,
(2) applications for the fiscal year 2009 funding
were not evaluated in a fair and consistent
manner, (3) applications for fiscal year 2009
funding were not always scored in compliance
with internal CDFI Fund guidance nor were
complete assistance application files maintained,
and (4) instances where the fiscal year 2009
assistance agreements omitted required
information or included incorrect data that was
not flagged by the CDFI Fund review process.
CDFI Fund management agreed with our 10
recommendations to ensure compliance with

        Treasury Office of Inspector General Semiannual Report—September 2011                       21
                                                       administration of the SBLF program. However,
Office of SBLF Program                                 Treasury program officials did not have a
Oversight – Significant                                formal plan to consult with the SBA or leverage
                                                       market data that SBA may collect to determine
Products                                               whether the goals reported are met. SBA
                                                       officials stated that they welcome consultation
Investment Decision Process for SBLF                   with Treasury as it would provide an
                                                       opportunity to help Treasury maximize SBLF
Our review disclosed that Treasury’s investment        program outcomes; and put institutions in
decision process, which closely follows                touch with SBA resources for developing
legislative requirements, targets institutions that    outreach plans and business strategies to target
are at least adequately capitalized because the        small businesses in the areas they serve.
Small Business Jobs Act of 2010 restricts
participation to financially viable banks.             Treasury does not plan to consider the small
Financially viable banks are adequately                business lending history of applicants who are
capitalized, not expected to become                    SBA lenders to identify compliance issues.
undercapitalized, and not expected to be placed        Senior Treasury officials indicated they are
into conservatorship or receivership. According        interested in having the SBLF program office
to Treasury officials, this requirement will           explore ways to leverage SBA’s data and
increase the likelihood that participants,             experience to achieve program outcomes.
including banks currently participating in TARP
capital programs, can repay their investment           We also determined that (1) although FBAs are
and have sufficient capital with which to              required to disclose only material supervisory
increase small business lending. However,              issues, they have significant discretion on which
TARP banks approved for SBLF funding are               issues to disclose to Treasury, (2) Treasury has
not expected to get much additional capital            provided no specific guidance to the FBAs for
beyond their outstanding TARP investment               identifying banks that may be required to raise
balances. The maximum investment for TARP              matching funds, (3) the noncumulative
banks, like other institutions, is restricted to a     treatment of SBLF dividends, which are driven
percentage of their risk-weighted assets, and for      by capital requirements imposed by an
many TARP banks, such assets may have                  amendment to Dodd-Frank, may result in
declined due to the downturn in the economy            institutions not fully paying all of the expected
since the time of their application to TARP.           dividends for Treasury’s investment, and (4) the
                                                       financial performance of applicants may change
Applicants are required to submit small business       between the time of the FBA review and the
lending plans that include their goals, but            disbursement of funds, creating a need to
neither their federal banking agency (FBA) nor         update supervisory information provided by the
Treasury intend to review the plans for the            FBAs.
likelihood of goal achievement. The Small
Business Jobs Act of 2010 provides that                We recommended that Treasury (1) report to
Treasury may consult with the Small Business           Congress monthly aggregate data regarding the
Administration (SBA) regarding the                     capital ratios of applicants approved for SBLF


        Treasury Office of Inspector General Semiannual Report—September 2011                       22
                                      Office of SBLF Program Oversight – Significant Products

funding, which is publicly available in call          Treasury Needs To Strengthen State
reports; (2) evaluate the reasonableness of small     Accountability For Use of SSBCI Funds
business lending plan goals before making
investment decisions and consult with SBA in          Before Treasury can disburse SSBCI funds, it
making the evaluation; (3) discuss with SBA           must execute an allocation agreement with every
compliance issues associated with SBLF                participating state that sets forth internal
applicants who are SBA lenders;(4) confirm            control, compliance, and reporting
with FBAs that there are no changes in an             requirements. We reviewed the SSBCI
institution’s financial viability or new              allocation agreement between Treasury and
supervisory concerns prior to disbursement of         participating states and other policy documents
SBLF funds; and (5) develop matching capital          to determine whether Treasury had adequately
guidance for the FBAs detailing Treasury’s            defined the compliance and oversight
expectations.                                         obligations of participating states to establish
                                                      proper accountability for oversight of allocated
In its response, Treasury management generally        funds.
agreed with our recommendations. With respect
to the recommendation that Treasury confirm           We identified several areas where SSBCI’s
with FBAs that there are no changes in an             compliance and oversight framework could be
institution’s financial viability or new              improved. Specifically, the allocation agreement
supervisory concerns prior to disbursement of         should clearly define the oversight obligations
SBLF funds, Treasury officials indicated that         of participating states and specify minimum
they have implemented such a procedure.               standards for determining whether participating
However, the procedure described does not             states have fulfilled their oversight
provide for directly contacting the FBAs prior        responsibilities. The language in the allocation
to providing funds. Accordingly, we consider          agreement and policy guidelines should also
this recommendation to be unresolved and plan         require that participating states collect and
to refer it to the Department’s Office of             review compliance assurances made by lenders
Management for resolution in accordance with          and borrowers and that all recipients provide
Treasury Directive 40-03, “Treasury Audit             compliance assurances. Finally, Treasury should
Resolution, Follow-Up, and Closure.”                  define what constitutes a “material adverse
                                                      change” in a participating state’s condition, or
In addition, we suggested that Congress               operations, which would reduce uncertainty
consider whether a legislative amendment to the       about when a State must notify Treasury. As a
Small Business Jobs Act of 2010 or a waiver           result, participating states may not exercise
from provisions of Dodd-Frank is needed to            sufficient oversight of funds allocated under the
make the repayment of all dividends a                 SSBCI program, and we may have difficulty
requirement for exiting the program.                  establishing whether participating states are in
(OIG-SBLF-11-001)                                     default of program requirements and have
                                                      misused funds.

                                                      Management took immediate action to address
                                                      the issues raised in the report, but did not agree


       Treasury Office of Inspector General Semiannual Report—September 2011                        23
                                    Office of SBLF Program Oversight – Significant Products

with our recommendation to modify the
allocation agreement or policy guidelines to
require participating states to make a
representation that it is aware of, monitoring,
and enforcing compliance with the policy
guidelines and other restrictions applicable to
program recipients. Management responded
that the current certification provides an
adequate assurance that each state is aware of,
monitoring, and enforcing compliance with
policy guidelines. However, we believe, that
state certifications would be solely based on
compliance assurances received from financial
institutions and borrowers without any
monitoring or verification by the state of that
compliance. We will continue to work with
Treasury to strengthen and improve the existing
oversight regime and plan to pursue resolution
of this recommendation through the audit
resolution process. (OIG-SBLF-11-002)




       Treasury Office of Inspector General Semiannual Report—September 2011           24
                                                       subjects to federal and local prosecutors with
Office of Investigations –                             requests for criminal charges. In addition, we
Initiatives and Significant                            assisted in indicting 3 individuals suspected of
                                                       Check Forgery Insurance Fund fraud, arrested
Investigations                                         another 14 individuals, and obtained 5 criminal
                                                       convictions. We also referred 9 matters to the
Initiatives                                            Treasury Office of General Counsel for civil
                                                       adjudication consideration under the Program
Bank Fraud Initiative                                  Fraud Civil Remedies Act.
In 2008, the number of failed financial
                                                       We continue to review claims against the Check
institutions across the country grew dramatically
                                                       Forgery Insurance Fund and work with other
and threatened our nation's financial system. In
                                                       law enforcement agencies and prosecutors at all
2009, in an effort to strengthen and protect the
                                                       levels of government to identify possible fraud
nation's financial system, the Office of
                                                       against Treasury and improper payments made
Investigations opened a number of
                                                       by Treasury.
investigations specifically targeting fraudulent
activities affecting the nation's banks. Working       Money Service Business Initiative
jointly in most cases with the FDIC, the FRB,
the United States Secret Service, and the Federal      Recently, we began an initiative to investigate
Bureau of Investigation, these investigations          MSBs that do not properly register with the
specifically involve the obstruction of OCC’s          FinCEN. Failure by MSBs to register with
financial institution examinations. Currently, the     FinCEN is a violation of Title 18 of the U.S. Code,
Office of Investigations has 15 open                   Section 1960, Prohibition of Unlicensed Money
investigations nationally and continues to             Transmitting Businesses. Additionally, upon request
receive referrals from the Office of Audit and         from a U.S. Attorney's Office, we will assist in
other sources.                                         investigations involving MSBs that are
                                                       registered, but are nonetheless involved in
Check Forgery Insurance Fund Initiative                fraudulent activities such as money laundering,
                                                       Title 18 of the U.S. Code, Section 1957, Engaging in
The Check Forgery Insurance Fund was created           Monetary Transactions in Property Derived From
by the Congress in 1941 to serve as a source of        Specified Unlawful Activity.
restitution to payees whose Treasury checks
were damaged, lost, stolen, or otherwise               An MSB subject to the registration requirement
compromised and unredeemable. Initially, the           includes any person doing business and meeting
fund's earmark was $50,000, but today the              certain daily activity thresholds, whether on a
fund’s annual funding allocation is over               regular basis or as an organized business
$10 million. In 2009, claims affecting the fund        concern, in one or more of the following
totaled $18.1 million; in 2010, $15.9 million; and     capacities: (1) currency dealer or exchanger;
in 2011, the projection is $11.7 million.              (2) check casher; (3) issuer of travelers' checks,
                                                       money orders or stored value cards; (4) seller or
During this reporting period, the Office of            redeemer of travelers' checks, money orders, or
Investigations presented cases involving 20


        Treasury Office of Inspector General Semiannual Report—September 2011                         25
                            Office of Investigations – Initiatives and Significant Investigations

stored value; (5) money transmitter; or (6) the
U.S. Postal Service.                                   The developer, initially acting on behalf of two
                                                       businesses, entered into loan agreements with
We began preliminary inquiries and opened              various banks for the purchase and
several investigations into alleged unregistered       development of property located in Savannah,
and unlicensed MSBs as well as into illicit            Georgia. Over a 2-year period, the developer
activities involving registered MSBs as requested      submitted dozens of fraudulent contractor
by the U.S. Attorney's Offices.                        invoices and thereby obtained over $1 million in
                                                       funds for contract and development work that
Significant Investigations                             was never performed. To prevent the loans
                                                       from becoming delinquent, the developer
Mint Police Officer Pleads Guilty to Theft and         conspired with employees of the First National
Tax Evasion                                            Bank of Savannah to obtain additional funds in
                                                       excess of $1 million. The proceeds were
As part of a joint investigation with
                                                       funneled back to the developer. The
IRS-Criminal Investigation, a Mint Police
                                                       investigation continues against former
Officer pled guilty to two counts of an
                                                       employees of the bank.
Information filed by the U.S. Attorney's Office
for the District of New Jersey, charging him           Mint Police Officer Arrested for Workers'
with theft of government property and tax
                                                       Compensation Fraud
evasion. The investigation revealed that from
2007 through 2009, the Mint Police Officer             In August 2011, as part of a joint investigation
stole Presidential $1 coins with missing edge          with the U.S. Department of Labor OIG, a
lettering and other items out of a Mint facility.      Mint Police Officer was arrested in Mt. Laurel,
The individual later sold the coins to a coin          New Jersey, for making material false
distributor in California. He admitted to              statements to obtain workers’ compensation.
receiving $2.4 million from the coin distributor       His residence was also searched as part of the
for the error coins, and that he failed to report      investigation. The employee was allegedly
that sale of the coins on his income tax return.       injured in September 2008 moving a gate at the
The individual is scheduled to be sentenced in         Mint. He was offered “light duty” but refused,
December 2011.                                         claiming he could not perform any type of
                                                       work. Since that date, he has received over
Real Estate Developer Sentenced in Bank Fraud          $173,000 in compensation while operating a
                                                       profitable company selling law enforcement
On August 15, 2011, our joint investigation            memorabilia.
involving multiple federal agencies resulted in
the conviction and sentencing of a real estate         Search Reveals $2.3 Million in Potential Fraud
developer in Savannah, Georgia. The developer
was sentenced to 52 months imprisonment and            In November 2010, we initiated an investigation
to pay $2,396,373 in restitution in connection         regarding possible stolen Treasury checks
with a conspiracy to defraud over $2 million           brought to our attention by Chase Bank. The
from several banks, including the First National       investigation determined that a number of
Bank of Savannah.                                      stolen Treasury checks, including tax refunds,

        Treasury Office of Inspector General Semiannual Report—September 2011                       26
                            Office of Investigations – Initiatives and Significant Investigations

were obtained by a group of individuals in             government from further transactions with
Atlanta, Georgia. Execution of a federal search        these parties.
warrant and subsequent investigative activity
identified more than 6,000 potential victims of        Our office presented evidence to Treasury’s
identity theft and $2.3 million in possible fraud      suspension and debarment official alleging the
against the government. Five arrest warrants           company and its President and Principal
and two federal criminal indictments have been         committed several fraudulent activities to inflate
obtained thus far, with more expected to follow.       the cost basis of a solar array installation at the
                                                       Waterfront Apartments in Phoenix, Arizona.
$13 Million Improper Payments Investigation            The Recovery Act enables entities placing
                                                       certain specified energy property, including solar
In January 2010, a joint investigation with
                                                       energy property, into service to obtain a grant in
IRS-Criminal Investigation and the U.S. Postal
                                                       the amount of a percentage of their cost basis as
Inspection Service was initiated regarding
                                                       reimbursement, in lieu of an otherwise available
potentially fraudulent tax refund checks issued
by Treasury that were brought to our attention         tax credit. Easy Energy, LLC claimed a grant in
by Wells Fargo. The investigation determined           lieu of tax credit for 30 percent of the cost basis
that more than 10,000 potentially fraudulent tax       of the property, to which it would have been
refund claims were made to IRS by a group of           entitled if the cost basis were correct. However,
individuals in Washington, D.C. As a result of         our investigation has revealed that its claimed
these claims, more than 6,000 potentially              basis was inflated and that it submitted false
fraudulent tax refunds were issued by Treasury         documents in substantiation of that claim.
resulting in a potential loss of over $13 million      Treasury will continue to monitor this case and
to the government from improper payments.              take appropriate action in due course.
The U.S. Attorney's Office in the District of
Columbia anticipates pursuing criminal charges
against multiple defendants in this investigation.     Following are updates to significant
                                                       investigative activities reported in prior
Recovery Act - Suspension of Easy Energy,
                                                       semiannual reports.
LLC

On September 6, 2011, Treasury suspended               Indictment and Sentencing in Fraudulent Check
Easy Energy, LLC, and its President and                Scheme - Update
Principal from participating in further
                                                       As reported in our March 2011 semiannual
transactions with federal government programs
                                                       report, an OIG investigation determined that an
and activities for 12 months or until the end of
                                                       individual in New Bern, North Carolina
civil or criminal proceedings. The suspension
                                                       attempted to misuse the Treasury Direct
was based on adequate evidence that Easy
                                                       Program.
Energy, LLC had committed irregularities which
seriously reflected on the propriety of further
                                                       On July 7, 2011, the individual was sentenced in
federal government dealings with the company.
                                                       the U.S. Courthouse in Wilmington, North
This action effectively protects the federal
                                                       Carolina, to 16 months imprisonment followed


        Treasury Office of Inspector General Semiannual Report—September 2011                        27
                            Office of Investigations – Initiatives and Significant Investigations

by a 4-year term of supervised release, and to         investigation involving a theft at one of its
pay $2,635 in restitution to his victims.              contractor’s warehouses. Specifically, we found
                                                       that the warehouse did not have adequate
Fraudulent Tax Refund Scheme Utilizing                 cameras, video retention, or a security badging
Treasury Direct Accounts - Update                      system to record when individuals entered
                                                       vaults and other secure locations. We also
As reported in our March 2011 semiannual               determined that the officer and its contractors
report, our office investigated a multi-million        need to improve their inventory control within
dollar fraud involving the use of false identities     the warehouses. Treasury Executive Office for
to obtain unwarranted tax refunds through the          Asset Forfeiture management is currently
Treasury Direct Program. Among other things,           reviewing these recommendations.
a subject arrested by OIG special agents had
been indicted and seizure warrants were issued         Procurement Process Deficiencies
for fraudulent Treasury Direct accounts totaling
over $781,000.                                         In November 2010, we issued a Management
                                                       Implication Report to the Mint regarding
Since our last semiannual report, seizure              deficiencies discovered in the bureau's
warrants were issued for Treasury Direct               procurement process. During this semiannual
accounts totaling an additional $1.2 million. The      period, Mint management responded that they
subject's trial is scheduled for later this year.      have provided additional training and
                                                       certification for their procurement personnel,
OCC Examiner Admits Misusing Government                hired additional personnel, and reorganized
Travel Card – Update                                   their procurement staff to reduce and eliminate
                                                       future issues in their contracting process.
As reported in our March 2011 semiannual
report, an investigation by our office
determined that an OCC bank examiner
admitted that she had used cash advances
inappropriately.

OCC issued the bank examiner a letter of
reprimand for the misuse of the travel card.



Management Implication Reports
Findings of Inadequate Warehouse
Security/Inventory Controls

During this reporting period, we issued a
Management Implication Report to the
Treasury Executive Office for Asset Forfeiture
regarding security concerns observed during an

        Treasury Office of Inspector General Semiannual Report—September 2011                      28
                                                           OIG Senior Executive Receives Presidential
Other OIG Accomplishments                                  Rank Award
and Activity                                               Marla Freedman, Assistant Inspector General
IG Testimony on Oversight of U.S. Custodial                for Audit, was the recipient of a 2010
Deep Storage Gold Reserves                                 Meritorious Presidential Rank Award.
                                                           Presidential Rank Awards honor high-
                     Pictured is Eric Thorson, Inspector   performing senior career employees for
                     General, Department of the            "sustained extraordinary accomplishment."
                     Treasury.                             Executives from across Government are
                                                           nominated by their agency heads, the
                     Over the years, some have             nominations are evaluated by citizen panels, and
                     called into question both             the awards are conferred by the President.
                     the existence and accuracy
                                                           Winners of this distinguished award are deemed
                     of the nation’s gold
                     inventory. On June 23,                to be strong leaders, professionals, or scientists
                     2011, Inspector General               who achieve results and consistently
(IG) Thorson testified before the House                    demonstrate strength, integrity, industry, and a
Committee on Financial Services’                           relentless commitment to excellence in public
Subcommittee on Domestic Monetary Policy                   service.
and Technology regarding the audits conducted
by Treasury OIG on the U.S. Mint’s Schedule
of Custodial Deep Storage Gold Reserves.
Testifying with Mr. Thorson was Mr. Gary T.
Engel, Director, Financial Management and
Assurance, Government Accountability Office

Treasury OIG assumed responsibility for
auditing Treasury’s deep storage gold in fiscal
year 1993. During the audits, we observe the
Mint’s inventory counts, sample the gold for
independent verification of its stated assay value
(assay is a measure of the purity of the gold),
and inspect the integrity of the official joint
seals placed on the compartments where the                 Ms. Freedman and other Department of the Treasury
gold is stored. In his testimony, Mr. Thorson              2010 Presidential Rank Award recipients were honored
told the Subcommittee, “100 percent of the U.S.            at a ceremony held in the Treasury Building Cash Room
Government’s deep storage gold reserves in the             on September 14, 2011. Standing with Ms. Freedman
custody of the Mint have been inventoried and              are Assistant Secretary for Management, Chief
audited, with no noteworthy exceptions.” Mr.               Financial Officer and Chief Performance Officer Daniel
Thorson also made it clear that the physical               Tangherlini and Inspector General Thorson.
security over the gold reserves is absolute
because he has personally observed the gold.



        Treasury Office of Inspector General Semiannual Report—September 2011                                29
                                                      Other OIG Accomplishments and Activity

The First Annual Treasury OIG Awards                          Customer Service Awards
                                                            IT/VPN Team in the Office of
On June 1, 2011, Treasury OIG held its first                          Management
annual awards program in the Cash Room of              Robin Berg, Jeff Lawrence, Ava Maria Davis,
Main Treasury. The program recognized the                  Ernie Eldridge, and Sam Sternberg
achievements and outstanding performance of
OIG staff during the calendar year 2010.                          Individual Awards
Presented were 5 Individual Achievement                David Cho, Audit; Imogene Murray; Counsel,
Awards, 2 Teamwork Awards, 4 Customer                           and Michael Stein, Audit
Service Awards, and the Rookie Award. Also
awarded was the first-ever IG’s Leadership            Continuing Professional Education Symposium
Award, the highest honor bestowed to an OIG
employee.                                             The Offices of Audit and SBLF Program
                                                      Oversight held their biennial continuing
Inspector General Eric Thorson presented              professional education symposium in August
awards to the following recipients:                   2011 at the Rosen Plaza Hotel in Orlando,
                                                      Florida. In attendance were 115 Treasury OIG
               IG Leadership                          staff as well as 10 auditors from the Department
                P. Brian Crane                        of Labor OIG. The symposium theme, Building
                                                      on Success, provided 40 hours of training in the
               Rookie Award                           areas of (1) developing audit findings, (2) report
               Sabrina Diggs                          writing skills, and (3) leadership skills. As
                                                      plenary sessions, the attendees heard from
     Individual Achievement Awards                    subject matter experts on topics such as
Donald Benson, Erica Wardley, Bobbi Paulson,          Government Auditing Standards, auditing for fraud,
        Jenny Hu, and John Gauthier                   the financial crisis, and identity theft. We also
                                                      conducted our 1st biennial Audit IQ
              Teamwork Award                          competition testing staff’s knowledge of
   Branch 3 of the Office of Investigations           auditing and Treasury history. The Banking
  Jason Metrick, Jerome Marshall, Christopher         Directorate led by Jeff Dye won this year’s
        LeFever, and Sean McDowell                    Audit IQ Champion title. A photo of the
                                                      winning Directorate team is on the next page.
The 2009-2010 External Peer Review Team
           in the Office of Audit
Bobbie Gambrill, Sheila Michel, Mark Levitt,
Michael Stein, Horace Bryan, Linda Anderson,
 Chereeka Straker, Erica Wardley, Michelle
 Littlejohn, Sabrina Diggs, Alicia Bruce, and
                 Gerald Kelly




       Treasury Office of Inspector General Semiannual Report—September 2011                        30
                                                                Other OIG Accomplishments and Activity

                                                                    investigative results, and priorities related to
                                                                    Treasury programs and operations
                                                                •   Enhance, support, and sustain a workforce
                                                                    and strengthen internal operations to
                                                                    achieve the Treasury OIG mission, vision
                                                                    and strategic goals




Pictured above are the Audit IQ Champions: back row from
left to right Jim Lisle, Audit Manager; Vicki Preston,
Auditor; Marco Uribe, Auditor; Christen Stevenson,
Auditor; front row from left to right April Ellison, Auditor;
Marla Freedman, Assistant Inspector General for Audit;
Adelia Gonzales, Auditor; Olivia Scott, Auditor; and
Jennifer Ksanznak, Auditor.

Treasury OIG Adopts New 5-Year Strategic Plan

In late May, OIG adopted a Strategic Plan for
Fiscal Years 2011-2015 that reinforces the
mission of promoting the integrity, efficiency
and effectiveness of Treasury programs and
operations. In addition to outlining the key
mandates and values of the office, the plan sets
forth four major strategic goals, with
accompanying objectives and indicators of
success. The plan also discusses the relationship
of the OIG Strategic Plan to the Department of
the Treasury Strategic Plan and includes a
discussion of critical environmental factors.

OIG’s four strategic goals are as follows.

•   Promote the integrity and effectiveness of
    Treasury programs and operations through
    audits and investigations
•   Proactively support and strengthen the
    Department’s ability to identify and manage
    challenges, both today and in the future
•   Fully and currently inform stakeholders of
    Treasury OIG findings, recommendations,

         Treasury Office of Inspector General Semiannual Report—September 2011                                  31
Statistical Summary
Summary of OIG Activity
For the 6 months ended September 30, 2011

                                                                                                Number or
OIG Activity                                                                                    Dollar Value
Office of Counsel Activity
Regulation and legislation reviews                                                                                  4
Instances where information was refused                                                                             0
Office of Audit Activities
Reports issued and other products                                                                                  50
Disputed audit recommendations                                                                                      0
Significant revised management decisions                                                                            0
Management decision in which the IG disagrees                                                                       0
Monetary benefits (audit)
Questioned costs                                                                                            $2,123,589
Funds put to better use                                                                                              0
Revenue enhancements                                                                                                 0
Total monetary benefits                                                                                     $2,123,589

Office of Small Business Lending Fund Program Oversight Activities
Products issued                                                                                                     2
Office of Investigations Activities
Criminal and judicial actions (including joint investigations)
Cases referred for prosecution and/or litigation                                                                   62
Cases accepted for prosecution and/or litigation                                                                   37
Arrests                                                                                                            15
Indictments/informations                                                                                            3
Convictions (by trial and plea)                                                                                    10



Significant Unimplemented Recommendations
For reports issued prior to October 1, 2010

The following list of OIG audit reports with unimplemented recommendations is based on information
in Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.

Number                    Date         Report Title and Recommendation Summary
OIG-06-030                05/06        Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze
                                       Bank Secrecy Act Data but Challenges Remain


           Treasury Office of Inspector General Semiannual Report—September 2011                                  32
                                                                                     Statistical Summary

                         FinCEN should enhance the current FinCEN database system or acquire a
                         new system. An improved system should provide for complete and accurate
                         information on the case type, status, resources, and time expended in
                         performing the analysis. This system should also have the proper security
                         controls to maintain integrity of the data. (1 recommendation)


OIG-09-027      1/09     Management Letter for Fiscal Year 2008 Audit of the Office of the Comptroller of the
                         Currency’s Financial Statements
                         OCC should continue to dedicate resources to fully implement the necessary
                         System Management Server process automatically and promptly detect and
                         remove unauthorized personal and public domain software from OCC
                         systems (workstations) and implement controls to restrict users from
                         downloading and installing unapproved software. (1 recommendation)


OIG-10-001      10/09    Safety and Soundness: Material Loss Review of TeamBank, National Association
                         OCC should emphasize to examiners the need to ensure that banks conduct
                         transactional and portfolio stress testing when appropriate.
                         (1 recommendation)


OIG-10-017      12/09    Safety and Soundness: Material Loss Review of Omni National Bank
                         OCC should implement a policy for examiner in charge rotation for midsize
                         and community banks. (1 recommendation)


OIG-10-025      12/09    Management Letter for Fiscal Year 2009 Audit of the Office of the Comptroller of the
                         Currency’s Financial Statements
                         OCC management should continue with its plan to implement a software
                         solution to restrict users from installing and executing unauthorized
                         software on OCC workstations. (1 recommendation)


OIG-10-035      2/10     Management Letter for Fiscal Year 2009 Audit of the Department of the Treasury
                         Financial Statements
                         The Chief Information Officer, with input from the Office of the Deputy
                         Chief Financial Officer, should implement the use of Secure Sockets Layer
                         for the Treasury Department’s Information Executive Repository and
                         CFO Vision applications. (1 recommendation)



      Treasury Office of Inspector General Semiannual Report—September 2011                                33
                                                                                               Statistical Summary

OIG-CA-10-009 5/10              Safety and Soundness: Material Loss Review of Union Bank
                                OCC officials should work with its regulatory partners to determine whether
                                to propose legislation and/or change regulatory guidance to establish limits
                                or other controls for concentrations that pose and unacceptable safety and
                                soundness risk and determine an appropriate range of examiner response to
                                high risk concentrations. (1 recommendation)



Summary of Instances Where Information Was Refused
April 1, 2011, through September 30, 2011

There were no such instances during this semiannual period.



Listing of Audit Products Issued
April 1, 2011, through September 30, 2011

Office of Audit
Attestation Engagements
Report on the Bureau of the Public Debt Administrative Resource Center’s Description of its Financial Management
Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period July 1, 2010 to
June 30, 2011, OIG-11-097, 9/12/2011

Report on the Bureau of the Public Debt Trust Funds Management Branch’s Description of its Trust Funds Management
Processing Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period August 1,
2010 to July 30, 2011, OIG-11-107, 9/22/2011

Report on the Bureau of the Public Debt Federal Investments Branch’s Description of its Investment/Redemption Services
and the Suitability of the Design and Operating Effectiveness of it Controls for the Period August 1, 2010 to July 31,
2011, OIG-11-108, 9/23/2011

Information Technology Audits and Evaluations
Information Technology: Fiscal Year 2011 Audit of Treasury’s Federal Information Security Management Act
Implementation for Its Intelligence Systems, OIG-11-098, 9/14/2011

Information Technology: Treasury’s Contract and Project Management for Treasury Network (TNet) Was Poor,
OIG-11-106, 9/22/2011


         Treasury Office of Inspector General Semiannual Report—September 2011                                          34
                                                                                     Statistical Summary

Information Technology: BEP’s Network and Systems Security Was Found to Be Insufficient, OIG-11-112,
9/30/2011

Performance Audits – Material Loss and In-depth Reviews of Failed Banks
Safety and Soundness: Material Loss Review of Guaranty Bank, OIG-11-066, 4/29/2011 (closed August 21,
2009; estimated loss to the DIF - $1.3 billion)

Safety and Soundness: Material Loss Review of Flagship National Bank, OIG-11-067, 5/3/2011 (closed
October 23, 2009; estimated loss to the DIF - $66.8 million)

Safety and Soundness: Material Loss Review of Greater Atlantic Bank, OIG-11-069, 5/16/2011 (closed
December 4, 2009; estimated loss to the DIF - $38 million)

Safety and Soundness: Material Loss Review of Charter Bank, OIG-11-072, 5/31/2011 (closed January 22,
2010; estimated loss to the DIF - $246.1 million)

Safety and Soundness: Material Loss Review of First Security National Bank, OIG-11-075, 6/10/2011 (closed
December 4, 2009; estimated loss to the DIF - $35.4 million)

Safety and Soundness: Material Loss Review of AmTrust Bank, OIG-11-076, 7/6/2011 (closed December 4,
2009; estimated loss to the DIF - $2.5 billion)

Safety and Soundness: Material Loss Review of TierOne Bank, OIG-11-080, 7/12/2011 (closed June 4, 2010;
estimated loss to the DIF - $313.8 million)

Safety and Soundness: Material Loss Review of ebank, OIG-11-081, 7/13/2011 (closed August 21, 2009;
estimated loss to the DIF - $46.3 million)

Safety and Soundness: Material Loss Review of Bradford Bank, OIG-11-082, 7/13/2011 (closed August 28,
2009; estimated loss to the DIF - $96.3 million)

Safety and Soundness: Material Loss Review of Century Bank, FSB, OIG-11-083, 7/14/2011 (closed
November 13, 2009; estimated loss to the DIF - $266.5 million)

Safety and Soundness: Material Loss Review of Partners Bank, OIG-11-084, 7/14/2011 (closed October 23,
2009; estimated loss to the DIF - $34.6 million)

Safety and Soundness: In-Depth Review of Waterfield Bank, OIG-11-085, 7/14/2011 (closed March 5, 2009;
estimated loss to the DIF - $42.5 million)

Safety and Soundness: Material Loss Review of La Jolla Bank, FSB, OIG-11-086, 7/14/2011 (closed
February 19, 2010; estimated loss to the DIF - $1 billion)




        Treasury Office of Inspector General Semiannual Report—September 2011                            35
                                                                                     Statistical Summary

Safety and Soundness: Material Loss Review of New South Federal Savings Bank, OIG-11-087, 7/14/2011
(closed December 18, 2009; estimated loss to the DIF - $227 million)

Safety and Soundness: Material Loss Review of First Federal Bank of California, OIG-11-090, 8/3/2011 (closed
December 18, 2009; estimated loss to the DIF - $10 million)

Safety and Soundness: Material Loss Review of Peoples First Community Bank, OIG-11-094, 8/25/2011 (closed
December 18, 2009; estimated loss to the DIF $514.7 million)

Safety and Soundness: Material Loss Review of United Western Bank, OIG-11-096, 9/2/2011 (closed
January 21, 2011; estimated loss to the DIF $292.3 million)

Safety and Soundness: Material Loss Review of Irwin Union, FSB, OIG-11-100, 9/14/2011 (closed
September 18, 2009; estimated loss to the DIF $138.7 million)

Safety and Soundness: Material Loss Review of Platinum Community Bank, OIG-11-102, 9/16/2011 (closed
September 4, 2009; estimated loss to the DIF $49.5 million)

Safety and Soundness: Material Loss Review of Vantus Bank, OIG-11-104, 9/20/2011 (closed September 4,
2009; estimated loss to the DIF $182.2 million)

Safety and Soundness: Material Loss Review of First National Bank of Anthony, OIG-11-105, 9/20/2011 (closed
June 19, 2009; estimated loss to the DIF $38.3 million)

Performance Audits – Reviews of Failed Banks Pursuant to Section 987 of the Dodd-
Frank Act
Safety and Soundness: Failed Bank Review of Canyon National Bank, OIG-11-070, 5/19/2011 (closed
February 11, 2011; estimated loss to the DIF - $10 million)

Safety and Soundness: Failed Bank Review of San Luis Trust Bank, FSB, OIG-11-071, 5/24/2011 (closed
February 18, 2011; estimated loss to the DIF - $96.1 million)

Safety and Soundness: Failed Bank Review of Appalachian Community Bank, F.S.B, OIG-11-073, 6/7/2011
(closed December 17, 2010; estimated loss to the DIF - $26 million)

Safety and Soundness: Failed Bank Review of First National Bank of Davis, OIG-11-074, 6/8/2011 (closed
March 11, 2011; estimated loss to the DIF - $26.5 million)

Safety and Soundness: Failed Bank Review of Rosemount National Bank, OIG-11-078, 7/8/2011 (closed
April 15, 2011; estimated loss to the DIF - $ 3.6 million)

Safety and Soundness: Failed Bank Review of First National Bank of Central Florida, OIG-11-092, 8/17/2011
(closed April 29, 2011; estimated loss to the DIF $42.9 million)


        Treasury Office of Inspector General Semiannual Report—September 2011                             36
                                                                                          Statistical Summary

Safety and Soundness: Failed Bank Review of Coastal Bank, OIG-11-095, 8/30/2011 (closed May 6, 2011;
estimated loss to the DIF $13.4 million)

Safety and Soundness: Failed Bank Review of Western Springs National Bank and Trust, Western Springs, Illinois,
OIG-11-099, 9/14/2011 (closed April 8, 2011; estimated loss to the DIF $34 million)

Safety and Soundness: Failed Bank Review of Atlantic Bank and Trust of Charleston, South Carolina OIG-11-101,
9/14/2011 (closed June 3, 2011; estimated loss to the DIF $36.4 million)

Other Performance Audits
Bill Manufacturing: Improved Security Over the NexGen $100 Notes Is Necessary, OIG-11-068, 5/13/2011

Recovery Act: Audit of Sierra SunTower LLC Payment Under 1603 Program, OIG-11-077, 7/7/2011,
$35,249 Q

Recovery Act: The Community Development Financial Institutions Fund Needs to Improve Its Process for Awarding
Assistance to Applicants, OIG-11-079, 7/8/2011

Review of CFPB Implementation Planning Activities, OIG-11-088, 7/15/2011

Awards to OneUnited Bank Were Consistent with Requirements But Certain Aspects of CDFI Fund Program
Administration Need to be Revisited, OIG-11-091, 8/3/2011

Recovery Act: Audit of Nevada Solar One LLC Payment Under 1603 Program, OIG-11-093, 8/17/2011,
$7,277 Q

Recovery Act: Audit of EcoGrove Wind LLC Payment Under 1603 Program, OIG-11-103, 9/19/2011,
$2,080,452 Q

Status of the Transfer of Office of Thrift Supervision Functions, OIG-11-109, 9/28/2011

Recovery Act: Audit of Pyron Wind Farm LLC Payment Under 1603 Program, OIG-11-110, 9/28/2011

Recovery Act: Audit of Inadale Wind Farm LLC Payment Under 1603 Program, OIG-11-111, 9/30/2011,
$611 Q

Evaluations and Other Products
Safety and Soundness: Material Loss Review Glossary, OIG-11-065, 4/11/2011

Dodd-Frank Act: Congressional Request for Information Regarding Economic Analysis by OCC, OIG-CA-11-006,
6/13/2011




        Treasury Office of Inspector General Semiannual Report—September 2011                                   37
                                                                                                    Statistical Summary

Statement of the Honorable Eric M. Thorson, Inspector General, Department of the Treasury, Before the House
Committee on Financial Services, Subcommittee on Domestic Monetary Policy and Technology (Hearing entitled
“Investigating the Gold: H.R. 1495, the Gold Reserve Transparency Act of 2011 and the Oversight of
United States Gold Holdings”), OIG-CA-11-007, 6/23/2011

Evaluation of Prompt Regulatory Action Implementation, OIG-CA-11-008, 9/30/2011

Office of SBLF Program Oversight
Small Business Lending Fund: Investment Decision Process for the Small Business Lending Fund,
OIG-SBLF-11-001, 5/13/2011

State Small Business Credit Initiative: Treasury Needs To Strengthen State Accountability For Use of Funds,
OIG-SBLF-11-002, 8/5/2011



Audit Reports Issued With Questioned Costs
April 1, 2011, through September 30, 2011

                                                                               Total         Total            Total
                                                                               No. of        Questioned       Unsupported
Category                                                                       Reports       Costs            Costs
For which no management decision had been made by beginning of reporting
period                                                                                   0               $0                 0
Which were issued during the reporting period                                            4       $2,123,589                 0
  Subtotals                                                                              4       $2,123,589                 0
For which a management decision was made during the reporting period                     1          $35,249                 0
  Dollar value of disallowed costs                                                       1          $35,249                 0
  Dollar value of costs not disallowed                                                   0                0                 0
For which no management decision was made by the end of the reporting period             3       $2,088,340                 0
For which no management decision was made within 6 months of issuance                    0                0                 0




          Treasury Office of Inspector General Semiannual Report—September 2011                                       38
                                                                                                                              Statistical Summary

Audit Reports Issued With Recommendations That Funds Be Put to Better
Use
April 1, 2011, through September 30, 2011

                                                                            Total
                                                                            No. of                                                     Revenue
Category                                                                    Reports            Total               Savings             Enhancement
For which no management decision had been made by beginning
of reporting period                                                                       1       $19,607,790        $19,607,790                                  0
Which were issued during the reporting period                                             0                 0                  0                                  0
   Subtotals                                                                              1       $19,607,790        $19,607,790                                  0
For which a management decision was made during the reporting
period                                                                                    1       $19,607,790        $19,607,790                                  0
   Dollar value of recommendations agreed to by management                                1         8,757,232          8,757,232                                  0
        Dollar value based on proposed management action                                  1         8,757,232          8,757,232                                  0
        Dollar value based on proposed legislative action                                 0                 0                  0                                  0
   Dollar value of recommendations not agreed to by
   management                                                                             1       $10,850,558        $10,850,558                                  0
For which no management decision was made by the end of the
reporting period                                                                          0                   0                   0                               0
For which no management decision was made within 6 months of
issuance                                                                                  0                   0                   0                               0
A recommendation that funds be put to better use denotes funds could be used more efficiently if management took actions to implement and complete the
recommendation including: (1) reduction in outlays, (2) de-obligations of funds from programs or operations, (3) costs not incurred by implementing recommended
improvements related to operations, (4) avoidance of unnecessary expenditures noted in pre-award review of contract agreements, (5) any other savings which are
specifically identified, or (6) enhancements to revenues of the federal government..




Previously Issued Audit Reports Pending Management Decisions (Over
6 Months)
There are no previously issued audit reports pending management decisions for the reporting period.



Significant Revised Management Decisions
April 1, 2011, through September 30, 2011

There were no significant revised management decisions during the period.




            Treasury Office of Inspector General Semiannual Report—September 2011                                                                            39
                                                                                   Statistical Summary

Significant Disagreed Management Decisions
April 1, 2011, through September 30, 2011

There were no management decisions this period with which the IG was in disagreement.



Peer Reviews
April 1, 2011, through September 30, 2011

Office of Audit
Audit organizations that perform audits and attestation engagements of federal government programs
and operations are required by Government Auditing Standards to undergo an external peer review every
3 years. The objective of an external peer review is to determine whether, during the period under
review, the audit organization’s system of quality control was suitably designed and whether the audit
organization was complying with its quality control system in order to provide the audit organization
with reasonable assurance that it was conforming to applicable professional standards.

No external peer reviews were conducted of, or by the Treasury OIG Office of Audit during this
semiannual period. A copy of the report issued in November 2009 on our most recent external peer
review conducted by the Department of State OIG is available on our website at

                               www.treasury.gov/about/organizational-
         structure/ig/Documents/Treasury%20OIG%20Peer%20Review%20Final%202009.pdf.


Office of Investigations
The Council of Inspectors General on Integrity and Efficiency mandates that the investigative law
enforcement operations of all OIGs undergo peer reviews every 3 years in order to ensure compliance
with (1) the Council’s investigations quality standards and with (2) the relevant guidelines established by
the Office of the Attorney General for the United States. No external peer reviews were conducted of,
or by the Treasury Office of Investigations during this semiannual period. In March 2011, the SBA OIG
conducted a peer review of our office and found our office to be in compliance with all relevant
guidelines.




       Treasury Office of Inspector General Semiannual Report—September 2011                           40
Bank Failures and Nonmaterial Loss Reviews
We conducted reviews of 9 failed banks with losses to the DIF that did not meet the definition of a
material loss in the Federal Deposit Insurance Act. These reviews were performed to fulfill the
requirements found in Section 987 of Dodd-Frank. As redefined in Dodd-Frank, the term “material”
loss which, in turn, triggers an MLR to be performed is, for 2010 and 2011, a loss to the DIF that
exceeds $200 million; for 2012 and 2013, a loss to the DIF that exceeds $150 million; and, for 2014
going forward, a loss to the DIF that exceeds $50 million (with provisions to increase that trigger to a
loss that exceeds $75 million under certain circumstances).

For losses that are not material, Section 987 requires that each 6-month period, the OIG of the federal
banking agency to (1) identify the estimated losses that have been incurred by the DIF during that
6-month period and (2) determine the grounds identified by the failed institution’s regulator for
appointing the FDIC as receiver, and whether any unusual circumstances exist that might warrant an in-
depth review of the loss. For each 6-month period, we are also required to prepare a report to the failed
institutions’ regulator and the Congress that identifies (1) any loss that warrants an in-depth review,
together with the reasons why such a review is warranted and when the review will be completed; and
(2) any losses where we determine no in-depth review is warranted, together with an explanation of how
we came to that determination. The table below fulfills this reporting requirement to the Congress for
the 6-month period ended September 30, 2011. We issue separate audit reports on each review to the
responsible Treasury regulator, OCC or OTS. In accordance with Title III of Dodd-Frank, OTS’s
powers and authorities were transferred to OCC, FDIC, and FRB on July 21, 2011. Reports issued for
OTS-regulated failed banks after this date were transmitted to OCC.

Bank Failures and Non Material Loss Reviews

                                                                                                              Reason/
                                                                                                              Anticipated
                                   Date Closed/         OIG Summary of                        In-Depth        Completion Date of
                                   Loss to the          Regulator’s Grounds                   Review          the In-Depth
Bank Name/Location                 DIF                  for Receivership                      Determination   Review
Regulator – Office of the Comptroller of the Currency
Western Springs National Bank       April 8, 2011       • Dissipation of assets or earnings   No              No unusual circumstances noted
and Trust                           $31 million           due to unsafe and unsound                           However, our review revealed
Western Springs, Illinois                                 practices                                           certain questionable transactions
                                                        • Capital impaired                                    that were referred by our
                                                                                                              auditors to the OIG Office of
                                                                                                              Investigations.
Rosemount National Bank            April 15, 2011       • Dissipation of assets or earnings   No              No unusual circumstances noted
Rosemount, Minnesota               $3.6 million           due to unsafe and unsound
                                                          practices
                                                        • Capital impaired
First National Bank of Central     April 29, 2011       • Dissipation of assets or earnings   No              No unusual circumstances noted
Florida                            $42.9 million          due to unsafe and unsound
Winter Park, Florida                                      practices
                                                        • Capital impaired
BankMeridian, N.A.                 July 29, 2011        • Dissipation of assets or earnings   No              No unusual circumstances noted
Columbia, South Carolina           $65.4 million          due to unsafe and unsound
                                                          practices
                                                        • Capital impaired



            Treasury Office of Inspector General Semiannual Report—September 2011                                                     41
                                                                         Bank Failures and Nonmaterial Loss Reviews

Bank Failures and Non Material Loss Reviews

                                                                                                                 Reason/
                                                                                                                 Anticipated
                                     Date Closed/        OIG Summary of                          In-Depth        Completion Date of
                                     Loss to the         Regulator’s Grounds                     Review          the In-Depth
Bank Name/Location                   DIF                 for Receivership                        Determination   Review
The First National Bank of Olathe    August 12, 2011     • Dissipation of assets or earnings     No              No unusual circumstances noted
Olathe, Kansas                       $116.6 million        due to unsafe and unsound
                                                           practices
                                                         • Capital impaired
                                                         • Failed to submit acceptable capital
                                                           restoration plan
First Southern National Bank         August 18, 2011     • Dissipation of assets or earnings     No              No unusual circumstances noted
Georgia                              $39.6 million         due to unsafe and unsound
Statesboro, Georgia                                        practices
                                                         • Capital impaired
                                                         • Failed to submit acceptable capital
                                                           restoration plan
First National Bank of Florida       September 9, 2011   • Dissipation of assets or earnings     No              No unusual circumstances noted
Milton, Florida                      $46.9 million         due to unsafe and unsound
                                                           practices
                                                         • Capital impaired
                                                         • Failed to submit acceptable capital
                                                           restoration plan
Regulator – Office of Thrift Supervision
Coastal Bank                         May 6, 2011         • Capital impaired                      No              No unusual circumstances noted
Cocoa Beach, Florida                 $13.4 million       • Failed to submit acceptable capital                   However, our review revealed
                                                           restoration plan                                      certain questionable transactions
                                                                                                                 that were referred by our
                                                                                                                 auditors to the OIG Office of
                                                                                                                 Investigations
Atlantic Bank and Trust              June 3, 2011        • Capital impaired                      No              No unusual circumstances noted
Charleston, South Carolina           $36.4 million       • Materially failed to implement a
                                                           capital restoration plan




            Treasury Office of Inspector General Semiannual Report—September 2011                                                        42
References to the Inspector General Act
                                                             Requirement                                                        Page
Section 4(a)(2)    Review of legislation and regulations                                                                             32
Section 5(a)(1)    Significant problems, abuses, and deficiencies                                                                  9-28
Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and deficiencies                                  9-28
Section 5(a)(3)    Significant unimplemented recommendations described in previous semiannual reports                             32-34
Section 5(a)(4)    Matters referred to prosecutive authorities                                                                       32
Section 5(a)(5)    Summary of instances where information was refused                                                                34
Section 5(a)(6)    List of audit reports                                                                                          34-38
Section 5(a)(7)    Summary of significant reports                                                                                  9-28
Section 5(a)(8)    Audit reports with questioned costs                                                                               38
Section 5(a)(9)    Recommendations that funds be put to better use                                                                   39
Section 5(a)(10)   Summary of audit reports issued before the beginning of the reporting period for which no management              39
                   decision had been made
Section 5(a)(11)   Significant revised management decisions made during the reporting period                                           39
Section 5(a)(12)   Management decisions with which the IG is in disagreement                                                           40
Section 5(a)(13)   Instances of unresolved FFMIA noncompliance                                                                         11
Section 5(a)(14)   Results of peer reviews conducted of Treasury OIG by another OIG                                                    40
Section 5(a)(15)   List of outstanding recommendations from peer reviews                                                               40
Section 5(a)(16)   List of peer reviews conducted by Treasury OIG, including a list of outstanding recommendations from those          40
                   peer reviews
Section 5(d)       Serious or flagrant problems, abuses, or deficiencies                                                           N/A
Section 6(b)(2)    Report to Secretary when information or assistance is unreasonably refused                                       34




           Treasury Office of Inspector General Semiannual Report—September 2011                                                  43
Abbreviations
1603 Program   Specified Energy Properties
BEP            Bureau of Engraving and Printing
BSA            Bank Secrecy Act
CDFI           Community Development Financial Institutions
CFPB           Bureau of Consumer Financial Protection
CIGFO          Council of Inspectors General on Financial Oversight
DIF            Deposit Insurance Fund
Dodd-Frank     Dodd-Frank Wall Street Reform and Consumer Protection Act
ECF            Eastern Currency Facility
EESA           Emergency Economic Stabilization Act
FBA            federal banking agency
FDIC           Federal Deposit Insurance Corporation
FinCEN         Financial Crimes Enforcement Network
FRB            Board of Governors of the Federal Reserve System
FSOC           Financial Stability Oversight Council
HERA           Housing and Economic Recovery Act
IG             Inspector General
IRS            Internal Revenue Service
IT             information technology
MLR            material loss review
MSB            money services businesses
OCC            Office of the Comptroller of the Currency
OIG            Office of Inspector General
OTS            Office of Thrift Supervision
PCA            Prompt Corrective Action
Plan           Joint Implementation Plan
Recovery Act   American Recovery and Reinvestment Act of 2009
SBA            Small Business Administration
SBLF           Small Business Lending Fund
SSBCI          State Small Business Credit Initiative
TARP           Troubled Asset Relief Program
TEICAM         Treasury Enterprise Identity, Credential and Access Management
TNet           Treasury Network
WCF            Western Currency Facility




      Treasury Office of Inspector General Semiannual Report—September 2011     44
North side of the Treasury Building, Washington, DC
         

     
            contact us
                                        
    Headquarters
    Office of Inspector General
    1500 Pennsylvania Avenue, N.W.
    Room 4436
    Washington, D.C. 20220
    Phone: (202) 622-1090;
    Fax: (202) 622-2151

    Office of Small Business Lending
    Fund Program Oversight
    1425 New York Avenue, Suite 5041
    Washington, D.C. 20220
    Phone: (202) 622-1090;
     Fax: (202) 927-5421

    Office of Audit
    740 15th Street, N.W., Suite 600
    Washington, D.C. 20220
    Phone: (202) 927-5400;
    Fax: (202) 927-5379

    Office of Investigations
    1425 New York Avenue, Suite 5041
    Washington, D.C. 20220
    Phone: (202) 927-5260;
    Fax: (202) 927-5421

    Office of Counsel
                                           Treasury OIG Hotline
    740 15th Street, N.W., Suite 510       Call Toll Free: 1.800.359.3898
    Washington, D.C. 20220
    Phone: (202) 927-0650;
    Fax: (202) 927-5418                    Treasury OIG Web Page
    Office of Management
    740 15th Street, N.W., Suite 510       OIG reports and other information are now available via the
    Washington, D.C. 20220                 Internet. The address is
    Phone: (202) 927-5200;
                                           http://www.treasury.gov/about/organizational-
    Fax: (202) 927-6492                    structure/ig/Pages/default.aspx  

    Eastern Field Audit Office
    408 Atlantic Avenue, Room 330
    Boston, Massachusetts 02110-3350
    Phone: (617) 223-8640;
    Fax (617) 223-8651
